<html>
<title> - OVERSIGHT OF EPA AUTHORITIES AND ACTIONS TO CONTROL EXPOSURES TO TOXIC CHEMICALS</title>
<body><pre>[Senate Hearing 112-974]
[From the U.S. Government Publishing Office]





                                                        S. Hrg. 112-974
 
OVERSIGHT OF EPA AUTHORITIES AND ACTIONS TO CONTROL EXPOSURES TO TOXIC 
                               CHEMICALS

=======================================================================

                             JOINT HEARING

                               before the

                   SUBCOMMITTEE ON SUPERFUND, TOXICS 
                        AND ENVIRONMENTAL HEALTH

                                and the

                              COMMITTEE ON
                      ENVIRONMENT AND PUBLIC WORKS
                          UNITED STATES SENATE

                      ONE HUNDRED TWELFTH CONGRESS

                             SECOND SESSION

                               __________

                             JULY 24, 2012

                               __________

  Printed for the use of the Committee on Environment and Public Works
  
  
  
  
  
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT] 
  


         Available via the World Wide Web: http://www.fdsys.gov
         
         
         
         
                            _________ 

                U.S. GOVERNMENT PUBLISHING OFFICE
                   
 25-110 PDF              WASHINGTON : 2017       
____________________________________________________________________
 For sale by the Superintendent of Documents, U.S. Government Publishing Office,
Internet:bookstore.gpo.gov. Phone:toll free (866)512-1800;DC area (202)512-1800
  Fax:(202) 512-2104 Mail:Stop IDCC,Washington,DC 20402-001         
  
  
         
         
         
               COMMITTEE ON ENVIRONMENT AND PUBLIC WORKS

                      ONE HUNDRED TWELFTH CONGRESS
                             SECOND SESSION

                  BARBARA BOXER, California, Chairman
MAX BAUCUS, Montana                  JAMES M. INHOFE, Oklahoma
THOMAS R. CARPER, Delaware           DAVID VITTER, Louisiana
FRANK R. LAUTENBERG, New Jersey      JOHN BARRASSO, Wyoming
BENJAMIN L. CARDIN, Maryland         JEFF SESSIONS, Alabama
BERNARD SANDERS, Vermont             MIKE CRAPO, Idaho
SHELDON WHITEHOUSE, Rhode Island     LAMAR ALEXANDER, Tennessee
TOM UDALL, New Mexico                MIKE JOHANNS, Nebraska
JEFF MERKLEY, Oregon                 JOHN BOOZMAN, Arkansas
KIRSTEN GILLIBRAND, New York

                Bettina Poirier, Majority Staff Director
                 Ruth Van Mark, Minority Staff Director
                              ----------                              

       Subcommittee on Superfund, Toxics and Environmental Health

               FRANK R. LAUTENBERG, New Jersey, Chairman
MAX BAUCUS, Montana                  MIKE CRAPO, Idaho
THOMAS R. CARPER, Delaware           LAMAR ALEXANDER, Tennessee
JEFF MERKLEY, Oregon                 MIKE JOHANNS, Nebraska
KIRSTEN GILLIBRAND, New York         JOHN BOOZMAN, Arkansas
BARBARA BOXER, California (ex        JAMES M. INHOFE, Oklahoma (ex 
    officio)                             officio)
    
    
                            C O N T E N T S

                              ----------                              
                                                                   Page

                             JULY 24, 2012
                           OPENING STATEMENTS

Boxer, Hon. Barbara, U.S. Senator from the State of California...     1
Inhofe, Hon. James M., U.S. Senator from the State of Oklahoma...     2
Lautenberg, Hon. Frank R., U.S. Senator from the State of New 
  Jersey.........................................................    19
Crapo, Hon. Mike, U.S. Senator from the State of Idaho...........    20
Vitter, Hon. David, U.S. Senator from the State of Louisiana.....    21
Sessions, Hon. Jeff, U.S. Senator from the State of Alabama, 
  prepared statement.............................................   139

                               WITNESSES

Jones, James J., Acting Assistant Administrator, Office of 
  Chemical Safety and Pollution Prevention, U.S. Environmental 
  Protection Agency..............................................    22
    Prepared statement...........................................    25
    Responses to additional questions from Senator Boxer.........    30
Pingree, Hannah, mother, former Speaker of the Maine House of 
  Representatives................................................    46
    Prepared statement...........................................    49
Stapleton, Heather M., Ph.D., Associate Professor, Nicholas 
  School of the Environment, Duke University.....................    80
    Prepared statement...........................................    83
    Responses to additional questions from Senator Boxer.........    92
Moore, Marshall, Director, Technology, Advocacy and Marketing, 
  Great Lakes Solutions, a Chemtura business.....................    95
    Prepared statement...........................................    97
Rawson, William K., Partner and Chair of the Environment, Land 
  and Resources Department in Washington, DC, Latham & Watkins...   105
    Prepared statement...........................................   108
    Response to an additional question from Senator Boxer........   115
Stefani, Tony, Founder, President, San Francisco Firefighters 
  Cancer Prevention Foundation...................................   116
    Prepared statement...........................................   118
    Responses to additional questions from Senator Boxer.........   122

                          ADDITIONAL MATERIAL

Letter from the American Chemistry Council to the Professional 
  Fire Fighters of Maine, July 20, 2012..........................   141
Letter from the American Chemistry Council to Senators Boxer and 
  Lautenberg, July 25, 2012......................................   142


OVERSIGHT OF EPA AUTHORITIES AND ACTIONS TO CONTROL EXPOSURES TO TOXIC 
                               CHEMICALS

                              ----------                              


                         TUESDAY, JULY 24, 2012

                               U.S. Senate,
         Committee on Environment and Public Works,
           joint with the Subcommittee on Superfund, Toxics
                                  and Environmental Health,
                                                    Washington, DC.
    The Committees met, pursuant to notice, at 10 a.m. in room 
406, Dirksen Senate Office Building, Hon. Barbara Boxer 
(Chairman of the full Committee) presiding.
    Present: Senators Boxer, Inhofe, Carper, Lautenberg, 
Cardin, Whitehouse, Merkley, Vitter, and Crapo.

           OPENING STATEMENT OF HON. BARBARA BOXER, 
           U.S. SENATOR FROM THE STATE OF CALIFORNIA

    Senator Boxer. The hearing will come to order.
    Before I read my opening statement and call on colleagues, 
I understand Representative Pingree is in the audience. Is she 
here? Welcome. I know that your daughter is testifying before 
us today. We are very happy to see you in the audience.
    The purpose of this hearing is to review the need to reform 
the Toxic Substances Control Act, otherwise known as TSCA, the 
primary law that regulates chemicals in this country. TSCA, 
which was enacted in the 1970s, was intended to protect public 
health and ensure the safety of chemicals that are found in 
products that we use every day.
    Unfortunately, this law has proven to lack the tools 
necessary to act swiftly and effectively when dealing with 
chemicals with potentially toxic effects. The weaknesses in the 
law were highlighted by a 1991 court decision where the court 
interpreted TSCA to require a complex process to obtain 
protections from asbestos, despite its obvious health hazards. 
It is clear that reforms are needed if the public is to have 
the protection that it deserves.
    A good illustration of the critical need to reform our 
toxic laws is the experience with a group of flame retardants 
which was intended to protect public safety but has raised 
serious concerns about the risk they pose through the toxic 
chemicals they contain. And I am going to have a firefighter 
from my State testifying on this matter. Thus far, science has 
shown that these chemicals in the flame retardants cause cancer 
in animals.
    We need to reform TSCA to provide incentives and ensure 
that the safest chemicals are used in our products so that the 
American public--including the most vulnerable among us, 
infants, children and pregnant women--are protected from toxic 
substances.
    I want to commend Senator Lautenberg for his leadership and 
his hard work to move forward with needed reforms. He has 
worked tirelessly with stakeholders, including the chemical 
industry, the public health community, and across the aisle in 
the Senate to find common ground in this important effort.
    The American people need us to reform TSCA, which is why I 
support Senator Lautenberg's determination to move a bill from 
this Committee and to broaden the discussion to the Senate 
floor. We must continue to work to develop consensus on this 
issue.
    I look forward to hearing from witnesses today. It is time 
to take action on this public health issue.
    And I call on Senator Inhofe.

          OPENING STATEMENT OF HON. JAMES M. INHOFE, 
            U.S. SENATOR FROM THE STATE OF OKLAHOMA

    Senator Inhofe. Thank you, Madam Chairman. And I will start 
by thanking both of you for holding today's oversight hearing. 
I also want to thank today's witnesses that are here.
    Modernization of the Toxic Substances Control Act, TSCA, is 
important. But before we focus on today's hearing, I would like 
to take a moment to address the markup for Senator Lautenberg's 
TSCA bill tomorrow.
    Senators Vitter, Crapo, Alexander, and I sent a letter to 
Senator Lautenberg yesterday expressing our disappointment that 
Republicans' sincere effort to work on a bipartisan TSCA reform 
had been rebuffed and that we will be going through a partisan 
political exercise tomorrow, effectively ending hopes for a 
TSCA modernization this year.
    Tomorrow's markup is especially disappointing given how 
this Committee has already come together and worked so hard to 
get a highway bill passed. That is why Barbara and I are so 
happy today, that we are still on a roll, are we not, Barbara?
    Chemistry is essential to our economy and plays a vital 
role in the creation of groundbreaking products that make our 
lives and world healthier, safer, and more sustainable. During 
this fragile economic time, the chemical industry is 
experiencing a competitive resurgence with more than 96 percent 
of all manufactured goods dependent upon chemistry. It is not 
hard to understand how this regulation impacts almost every 
aspect of our economy.
    Having said that, it is imperative that any TSCA 
modernization efforts be bipartisan, based on sound science, 
protective of public health, and continue to allow American 
industry to lead the world through responsible innovation.
    One subset of chemicals regulated by TSCA is flame 
retardants. These chemicals which are required in many 
instances to meet mandatory Federal and State laws and 
standards not only protect household goods like upholstered 
furniture but also electronics, cars, buildings, and airplanes. 
Despite the recent focus on furniture, foam cushions in the 
upholstered furniture represent only about 2 to 3 percent of 
the total flame retardant usage in plastic applications in 
North America.
    Flame retardants are one of many fire safety tools relied 
up on in homes and public places to reduce fire, injuries, and 
deaths, and they have made a significant impact in fire safety 
despite the increases in exposure to flammable materials in our 
daily lives.
    Studies in the United States and abroad have proven the 
effectiveness of flame retardants in a wide variety of uses. 
For example, Dr. Matt Blais recently analyzed data from the 
National Institute of Justice Arson Study and found that flame 
retardants do provide measurable fire safety benefits in 
upholstered furniture by providing time for families to escape 
and increase the response for fire escape.
    So, with that, I would like to enter that into the record--
--
    Senator Boxer. Without objection. So ordered.
    Senator Inhofe. Along with the Aerospace Industries 
Association letter relating to this subject.
    The Chicago Tribune, which we will be hearing about a lot 
today, reported in 2005 on the effectiveness of flame 
retardants in seat cushions, carpets, and other materials 
following the crash of an Air France jetliner in Toronto when 
flight crews evacuated the flaming jumbo jetliner with no 
fatalities.
    So, we do have some problems coming up in perhaps some 
industries that were not fully brought into the fold and have a 
great effect on our national security and other things.
    So with that, we are looking forward to hearing more about 
this, and I think I would probably be opposing it as it is 
going to be introduced tomorrow, is it? Or it is the next day? 
Thursday?
    Senator Boxer. We are going to be marking up tomorrow.
    Senator Inhofe. Thursday, I believe.
    Senator Boxer. Tomorrow? Yes, tomorrow.
    Senator Inhofe. OK.
    Senator Boxer. Well, thank you Senator.
    Senator Inhofe. Thank you, Madam Chairman.
    [The prepared statement of Senator Inhofe follows:]

                  Statement of Hon. James M. Inhofe, 
                U.S. Senator from the State of Oklahoma

    I want to start by thanking Chairman Boxer and Chairman 
Lautenberg for holding today's oversight hearing; I also want 
to thank today's witnesses. Modernization of the Toxic 
Substances Control Act (TSCA) is very important, but before we 
focus on today's hearing I would like to take a moment to 
address the markup of Senator Lautenberg's TSCA bill tomorrow.
    Senators Vitter, Crapo, Alexander, and I sent a letter to 
Senator Lautenberg yesterday expressing our disappointment that 
Republicans' sincere efforts to work on bipartisan TSCA reform 
have been rebuffed and that we will be going through a partisan 
political exercise tomorrow, effectively ending hopes for TSCA 
modernization this year. Tomorrow's markup is especially 
disappointing given how this Committee has recently come 
together and worked so hard to get a highway bill passed into 
law and leading into our important bipartisan efforts to see if 
we can complete a Water Resources Development Act 
reauthorization. Despite our frustration, we will continue 
working to find a bipartisan path for TSCA modernization moving 
forward.
    Chemistry is essential to our economy and plays a vital 
role in the creation of ground breaking products that make our 
lives and world healthier, safer, and more sustainable. During 
this fragile economic time, the chemical industry is 
experiencing a competitive resurgence, and with more than 96 
percent of all manufactured goods dependent on chemistry it is 
not hard to understand how this regulation impacts almost every 
aspect of our economy. Having said that, it is imperative that 
any TSCA modernization efforts be bipartisan, based on sound 
science, protective of public health, and continue to allow 
American industry to lead the world through responsible 
innovation.
    One subset of chemicals regulated by TSCA is flame 
retardants. These chemicals, which are required in many 
instances to meet mandatory Federal and State laws and 
standards, not only protect household goods like upholstered 
furniture, but also electronics, cars, buildings, and 
airplanes. Despite the recent focus on furniture, foam 
cushioning in upholstered furniture represents only 2-3 percent 
of the total flame retardant usage in plastic applications in 
North America.
    Flame retardants are one of many fire safety tools relied 
upon in homes and public places to reduce fire injuries and 
deaths, and they have made a significant impact in fire safety 
despite the increase in exposure to flammable materials in our 
daily lives.
    Studies in the U.S. and abroad have proven the 
effectiveness of flame retardants in a wide variety of uses. 
For example, Dr. Matt Blais recently analyzed data from a 
National Institute of Justice arson study and found that flame 
retardants do provide measurable fire safety benefit in 
upholstered furniture by providing time for families to escape 
and increasing available response time for the fire service.
    The Chicago Tribune, which we will be hearing a lot about 
today, reported in 2005 on the effectiveness of flame 
retardants in ``seat cushions, carpets, and other materials'' 
following the crash of an Air France jetliner in Toronto when 
flight crews evacuated the ``flaming jumbo jetliner'' with no 
fatalities.
    As these reports have outlined, flame retardants can be an 
important and effective tool in protecting the American public. 
Any decision made by EPA or any other Federal agency should be 
based on sound, peer reviewed science--not politics or articles 
in newspapers--and the Agency should be very cognizant of 
shifting risks from one area to another.
    As a father and grandfather of 20 children and 
grandchildren, I fully recognize the fact that we need to 
modernize TSCA and revive public confidence in our Federal 
chemical management system, but if we want to effectively 
update TSCA we also need to be honest about our current 
system--both about what it does well and what needs 
improvement. For example, even the EPA has acknowledged there 
are far fewer than 80,000 chemicals actively in commerce today.
    We have also heard from numerous witnesses in this 
Committee, including Dr. Lynn Goldman, former Assistant 
Administrator for Toxic Substances under President Clinton, 
that EPA's new chemicals program has been a good process and 
has led ``industry to screen out `bad actors' before presenting 
them to EPA in the first instance.''
    Given the regulatory barrage by the Obama administration 
and his EPA, we must ensure that TSCA modernization is 
accomplished in a responsible manner while not harming the 
economy and shipping jobs overseas. In order to have real and 
effective reform, it must be accomplished in a bipartisan way 
with a broad base of support from a wide range of stakeholders, 
including those up and down the value chain.
    I would like unanimous consent to include Dr. Blais's study 
into the record as well as a letter from the aerospace industry 
voicing concerns over EPA's current initiatives related to 
flame retardant chemicals. I look forward to hearing from the 
witnesses today.

    [The referenced information follows:]
    
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
    
    Senator Boxer. Well, thank you, Senator.
    Senator Lautenberg.

        OPENING STATEMENT OF HON. FRANK R. LAUTENBERG, 
           U.S. SENATOR FROM THE STATE OF NEW JERSEY

    Senator Lautenberg. Thanks, Madam Chairman.
    It is regrettable that we find ourselves kind of landlocked 
here. When I introduced the first TSCA reform bill in 2005, in 
the 7 years since then we have held many hearings, briefings, 
stakeholder meetings, and negotiations. During that time, our 
office has had an open door policy. My staff and I have 
conducted dozens of meetings with groups on all sides of the 
issue. And more than 2 years ago, in this very room, I said 
that my State Chemicals Act should be considered an invitation 
for all to play a part. And I have reiterated that call for 
Republican input at almost every opportunity.
    Last summer and fall Senator Inhofe and his staff joined us 
to hold a series of 10 meetings to better understand his 
concerns and those of industry. And this summer I was pleased 
when Senator Vitter reached out and expressed his interest in 
working together on TSCA reform. At the end of May I agreed to 
discussions but made clear that we needed to show progress, 
that we could not engage in things that might delay us getting 
to something of value and help.
    After 7 weeks of talks, we were still discussing the first 
of many topics on our agenda. My staff proposed new comprised 
language on a number of sections, but we never received a 
single counterproposal. This week's Committee markup may be the 
last in this Congress. And I--and millions of people across 
this country--did not want another year to pass without 
progress on toxic chemicals.
    And so we will be voting tomorrow on a bill that has 
evolved to reflect years of input from all parties. And I hope 
that my friends across the aisle will give it fair 
consideration. Let us air it out here. Let us talk about it. Be 
here and show the interest that should be shown to say that we 
want to continue to work together to bring out something that 
is worth the effort.
    And when we--so, what has happened this spring, the Chicago 
Tribune ran an expose about how some in the chemical industry 
have used dirty tricks and bad science to drive a public 
misinformation campaign that keeps dangerous flame retardants 
in our home, even when those chemicals do not do what they are 
supposed to do, and that is prevent fires.
    The industry has been accused of bankrolling so-called 
experts to invent stories that spout the company line, all this 
service of protecting their profits, and all of that at the 
expense of safety and health. Many companies, many countries, 
require chemicals like flame retardants to be tested, proven 
safe before they end up in stores and then in our homes. But 
not in the United States.
    And that is why Senator Snowe and I recently sent a 
bipartisan letter to EPA signed by 24 of our Senator colleagues 
urging the agency to take action on a class of flame 
retardants. Our letter also called for real reforms to the 
Toxic Substances Control Act.
    But let us be clear. Flame retardants are only one example 
of the problems that we have with our system of regulating 
chemicals. Studies by CDC scientists found 212 industrial 
chemicals, including six linked to cancer coursing through 
American bodies. But in nearly 35 years, EPA has been able to 
regulate only five substances using the tools of TSCA.
    My TSCA reform bill, the Safe Chemicals Act, will simply 
require chemical manufacturers to display, demonstrate that 
their products are safe before they end up in bodies. Most of 
the thousands of chemicals that are used every day are safe. 
But this bill will separate those safe chemicals from the ones 
that are not.
    We first began examining the problem with TSCA in 2005. So, 
this is not a new subject. It is a subject that really you 
would think would wear out of its own weight. But no, we 
persisted, because it is our obligation to the people in our 
country.
    So, I am proud that this Committee will vote tomorrow on 
the Safe Chemicals Act. I believe today's hearing will add 
further evidence that we cannot delay any longer.
    And I publicly invite Senator Vitter and colleagues on the 
other side to come along. Let us discuss it. Let us show that 
there is enough interest to get a response to the changes that 
we have made. We have made many to try to accommodate our 
colleagues.
    So, thank you, Madam Chairman, for the opportunity to do 
this.
    Senator Boxer. Thanks, Senator.
    Senator Crapo.

             OPENING STATEMENT OF HON. MIKE CRAPO, 
              U.S. SENATOR FROM THE STATE OF IDAHO

    Senator Crapo. Thank you very much, Senator Boxer. I 
appreciate you and Senator Lautenberg for scheduling today's 
hearing on EPA's authorities and actions for controlling 
exposures to toxic chemicals generally and to flame retardants 
specifically.
    I also appreciate the participation of the witnesses who 
have agreed to answer and appear here this morning. The first 
panel features the testimony of James Jones, the Acting 
Assistant Administrator of the EPA's Office of Chemical Safety 
and Pollution Prevention, who is responsible for implementing 
the provisions of the Toxic Substances Control Act.
    I look forward to hearing Mr. Jones' opinion regarding 
EPA's implementation of TSCA and how it works to help ensure an 
effective and efficient Federal regulatory regime that is 
capable of protecting public health, welfare, safety, and our 
environment while promoting economic growth, innovation, 
competitiveness. and job creation.
    The five witnesses that comprise the second panel represent 
a diverse set of interests and experiences. This diversity is 
valuable for understanding the multiple facets of what is a 
highly complex regulatory challenge, and I thank them for their 
participation and look forward to their testimonies.
    There has been much written and much said about the 
regulation and use of flame retardants in commerce. As we will 
hear today, there is substantive proof that flame retardants 
are effective in saving lives by delaying the spreading of fire 
and allowing people additional time to escape injury. We will 
also hear divergent views regarding the safety of flame 
retardants and EPA's regulatory authority under TSCA.
    Under current TSCA framework, EPA and industry conducted 
extensive reviews of flame, of the current flame retardants, 
and EPA approved their use on the market. Further, EPA has not 
invoked its authority under TSCA to remove these chemicals from 
the market.
    Because of the obvious diversity of opinion regarding the 
efficacy of flame retardants and other chemicals, it is 
critical that we support a regulatory framework that is risk 
based and further grounded in peer reviewed science. Our 
understanding of the possible health effects of flame 
retardants is constantly evolving. Therefore, we must be 
pragmatic in our regulatory approaches and mindful of the 
consequences of jumping to conclusions that have not been 
definitely proved by science.
    Tomorrow, this Committee will meet to mark up several 
pieces of legislation including Senator Lautenberg's Safe 
Chemicals Act. My office, as has been indicated already, along 
with several others had, until last week, been actively engaged 
with Senator Lautenberg's office to develop a bipartisan path 
forward for TSCA reform. I am disappointed that we will now 
move forward and abandon this process and tomorrow consider a 
bill that is still controversial and does not represent the 
bipartisan consensus building that we have been seeking to 
achieve.
    As I stated earlier, effective regulatory frameworks must 
seek to protect health and safety while promoting economic 
growth. This balance is difficult and cannot be achieved 
unilaterally.
    Again, I appreciate the participation of the panel members 
this morning, and I look forward to your insight.
    Senator Boxer. Thank you so much.
    Senator Vitter.

            OPENING STATEMENT OF HON. DAVID VITTER, 
            U.S. SENATOR FROM THE STATE OF LOUISIANA

    Senator Vitter. Thank you, Madam Chair and Ranking Member 
Inhofe, for the hearing. And certainly there is no disagreement 
in terms of the broader issue we are here about, that there is 
need for TSCA reform, a law which really has not been updated 
significantly since 1976.
    And I want to commend Senator Lautenberg for his priority 
and focus for several years with regard to reform. I know it is 
very deep and very sincere. As has been stated, Senators Inhofe 
and Crapo and Alexander, as well as myself, have very actively 
engaged with Senator Lautenberg, meeting at the staff level 
weekly, if not more, over an extended period of time.
    Unfortunately, those of us on this side all view this 
hearing and the partisan markup to follow tomorrow as a 
diversion from that, an interruption from that. And we think it 
is unfortunate.
    But I, for one, remain completely committed to getting back 
to that bipartisan process so that we can produce a good 
consensus bill that can actually pass the Senate and the House. 
And that is what I remain committed to. Again, I think this 
diversion is unfortunate, but it is not going to shake that 
commitment on my part.
    TSCA is very important. We need to reform it and we need to 
get that right. From my perspective in Louisiana, I will tell 
you a few reasons we need to get it right because this 
industry, which is so important for the nation, is certainly 
important for our economy.
    Chemical companies in Louisiana directly employ over 22,000 
people and indirectly contribute 158,000 jobs to the economy. 
For every direct job in Louisiana, another 5.5 jobs are created 
in the State. An average wage we are talking about for those 
direct jobs is very healthy, over $84,000, 47 percent higher 
than the average manufacturing wage. These jobs generate $1.9 
billion in earnings and almost $1 billion in tax revenue and 
$962 million in Social Security and Medicare contributions.
    Let me also focus for a minute about the need to reform to 
get it right because I think we have had a lot of evidence in 
the last few years in particular how the present regime with 
regard to regulation is getting it wrong.
    In particular, I was very involved in demanding a National 
Academy of Science study with regard to one particular 
chemical, formaldehyde, when EPA was pushing an aggressive 
agenda regarding this. We finally got that independent NAS 
study, and unfortunately, it underscored and really proved a 
lot of our concerns about the IRIS process in general. Let me 
just point to some of the conclusions from that study.
    This is the National Academy of Science, a very mainstream, 
respected organization. They said ``Problems with clarity and 
transparency of the methods appear to be a repeating theme over 
the years.'' They said ``The conclusions appear to be based on 
a subjective view of the overall data.'' And ``The causal 
determinations are not supported by the narrative provided.''
    And then finally, EPA overstated the evidence to deem 
formaldehyde a neurotoxic. The human data are insufficient, and 
the candidate animal studies deviate substantially from testing 
guidelines and common practice.
    Unfortunately, this was not an isolated incident. It is a 
much broader issue, at least with the whole IRIS process. And 
because of that, the EPA itself even admitted the need for 
fundamental reform, Dr. Paul Anastas saying in July 14 of last 
year, ``Over the coming months, the IRIS program will fully 
implement the NAS recommendations and continue to improve the 
IRIS process to reflect the highest standards of scientific 
integrity and credibility.''
    We are still not there, and TSCA reform based on sound 
science, based on bipartisan consensus, is absolutely necessary 
to get us there. So, after this distraction this week, I really 
hope we get back to that important hard work of mainstream TSCA 
reform.
    Thank you, Madam Chair.
    Senator Boxer. Thank you very much.
    Now we will turn to our first witness, Hon. Jim Jones, 
Acting Assistant Administrator for the Office of Chemical 
Safety and Pollution Prevention, U.S. EPA.
    Welcome.

 STATEMENT OF JAMES J. JONES, ACTING ASSISTANT ADMINISTRATOR, 
   OFFICE OF CHEMICAL SAFETY AND POLLUTION PREVENTION, U.S. 
                ENVIRONMENTAL PROTECTION AGENCY

    Mr. Jones. Good morning, Chairman Boxer, Senator 
Lautenberg, Ranking Member Inhofe, and members of the 
Committee. Thank you for the opportunity to address you today 
on the reform of chemical management and our authority to 
assess the safety of flame retardant chemicals.
    Ensuring chemical safety, maintaining public confidence 
that EPA is protecting the American people, and promoting our 
global leadership in chemicals management remain top priorities 
for the EPA and Administrator Jackson. I want to thank you 
both, Senator Boxer and Senator Lautenberg, as well as members 
of the Committee, for your continued leadership on this very 
important issue and your efforts to bring about reform of TSCA.
    With each passing year, the need for TSCA reform grows. 
Chemicals are found in most everything we use and consume, and 
they are essential for our health, our well-being, and our 
prosperity. It should be equally essential that chemicals are 
safe. Today I will discuss a prime example of the shortcomings 
of TSCA that stands as a clear illustration of the need for 
TSCA reform.
    So, what are the problems with TSCA? When TSCA was enacted, 
it grandfathered in, without any evaluation, the 62,000 
chemicals in commerce that existed in 1976. The TSCA inventory 
currently lists over 84,000 chemicals, few of which have been 
studied for their risks, especially to children.
    Unlike the laws applicable to drugs and pesticides, TSCA 
does not have a mandatory program where EPA must conduct a 
review to determine the safety of existing chemicals. The 
manufacturers do not need to demonstrate the safety of new 
chemicals before they are introduced into the marketplace.
    When EPA determines that a chemical imposes a significant 
health concern, taking action under TSCA to limit or ban a 
chemical is challenging. To address these shortcomings, in 
September 2009 the EPA Administrator, Lisa Jackson, announced a 
set of administration principles to update and strengthen TSCA. 
These include that manufacturers provide EPA with the necessary 
information to conclude that new and existing chemicals are 
safe, and the agency should have the tools to quickly and 
efficiently obtain information from manufacturers that is 
relevant to determining the safety of chemicals. The EPA should 
also have clear authority to assess chemicals against a safety 
standard and take risk management actions when chemicals do not 
meet the safety standard.
    While the legislative reform process is under way, we are 
not just standing by. The agency is utilizing the current 
authority under TSCA to help protect human health and the 
environment. Earlier this year, EPA developed a screening 
process to identify chemicals for review based on their hazard, 
exposure, and persistence and bioaccumulation characteristics.
    We identified 83 work plan chemicals for risk assessment 
with an initial of seven for assessment for this year. In June 
we identified an additional 18 chemicals that the agency 
intends to review and then develop risk assessments in 2013 and 
2014, including three flame retardant chemicals.
    EPA's experience with one flame retardant in particular 
highlights the limitations of TSCA. The EPA first reviewed a 
new flame retardant component, TBB, in several products in 1995 
for use in foam and was unable to identify that is was 
persistent and bioaccumulative. We only learned of these 
properties after the chemical was in commerce and was later 
found in humans and the environment. Also in the formulation 
was an existing flame retardant chemical, TBPH. Further 
research has shown that this existing chemical has similar 
concerns, but it, too, is persistent and bioaccumulative.
    This example illustrates the problems we face with both new 
and existing chemicals since taking the necessary steps to 
ensure that new chemicals or chemical already in commerce are 
safe can be cumbersome, involve regulatory processes that take 
years before hazards are addressed. TBB and TBPH are two of the 
flame retardants that EPA will evaluate in 2013, 18 years after 
TBB was first introduced into the market. This is an example 
that highlights the critical need for the agency to have 
greater evidence that new chemicals are safe prior to 
commercialization and stronger tools to take action after they 
are on the market to ensure safety.
    The American public has the right to expect that chemicals 
manufactured, imported, and used in this country are safe. And 
EPA needs an effective law that gives us the tools necessary to 
provide the public with these assurances. TSCA must be updated 
and strengthened so that EPA has the tools to do our job of 
protecting public health and the environment. The time to fix 
this badly outdated law is now.
    I will be pleased to answer any questions that you may 
have.
    [The prepared statement of Mr. Jones follows:]
    
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
    
    Senator Boxer. Thank you very much.
    I just wanted to make a note here that I am a very strong 
supporter of bipartisanship, and this Committee has shown we 
can do it. And we are very proud of our accomplishments.
    But there are certain times when it does not work, and as 
Chairman of this Committee, I am responsible for saying we 
should mark up a bill, and I take all the heat for that. It is 
not Senator Lautenberg, but I found out from him that he had 
dozens of meetings, and he just believes at this point that 
there is a breakdown, there is a difference.
    There is a difference here which involves how much you want 
to protect public health versus how much you want to balance 
that with protecting chemical companies. Now, that is his view 
on the thing.
    And I think at some point we might have to say that we have 
gone very far in our talks, everyone is friendly and amiable, 
and I really appreciate that as Chairman. But at some point 
there are going to be issues where there are just clear 
differences. And I do not think that is anything to be ashamed 
of. I think the people of this country need to understand the 
differences. There is nothing wrong with that. So we are going 
to move ahead.
    But I was also heartened to hear Senator Vitter say, and 
others, that they are going to continue to work with us 
because, if we do get this bill out, we do not know, if we do 
get this bill out, and it is ready for the floor, we are still 
open. I know Senator Lautenberg is still open to negotiations. 
So, I wanted to make that point.
    I want to ask my first question this way, Administrator 
Jones. Your testimony states that EPA is concerned that certain 
flame retardants called PBDEs are persistent, bioaccumulative, 
and toxic to humans and the environment and that their 
potential impacts on neurobehavioral development raise 
particular concerns for the health of our children. Can you 
explain why these types of persistent and bioaccumulative 
chemicals can raise unique threats to children's health?
    Mr. Jones. Thank you, Senator Boxer. These compounds, PBDEs 
in particular, express toxicity in developing organisms, and we 
learned that about a dozen years ago through some data 
associated with developing organisms, development neurotoxicity 
studies. So, they affect the development of growing organisms, 
so, children in utero.
    But the fact that they are persistent and bioaccumulative 
creates additional concerns because they are going to last in 
the environment for a very long time. So, even after they are 
removed from the market, they are going to be in our 
environment for some time, and they are going to move up the 
food chain. So, that creates a different route of exposure to 
humans, not only from your exposure directly to such a chemical 
but also indirectly as they will get into the environment and 
move up the food chain. So, they will ultimately end up in 
foods that we consume.
    Senator Boxer. Well, I wanted to make a point that a study 
by researchers at UC, University of California San Francisco, 
detected certain PBDEs, PCBs, pthalates, pesticides, 
perchlorate, and other chemicals in the blood of 99 to 100 
percent of pregnant women that they tested. So, our society is 
being exposed to these chemicals and the most vulnerable, the 
fetuses, are getting exposed. And it is very serious.
    So I know, as we look at history, that TSCA needs to be 
reformed. I think everybody agrees with this. So, my question 
to you is, could you describe the additional tools to protect 
the health of pregnant women, infants, and children that 
reforming TSCA would provide to the EPA? In other words, what 
would it give you if it was done right that you cannot do now?
    Mr. Jones. Thank you, Senator Boxer. The things that we 
would hope to achieve as articulated in the Administration 
principles are that we would have, the manufacturers would be 
able to demonstrate the safety of compounds such as these 
before they are on the market, the agency would have tools for 
those chemicals that are on the market to quickly get health 
and safety information from manufacturers, and then the agency 
would have the tools it would need when we identify a risk to 
manage or mitigate the risks associated with those chemicals 
that are on the market.
    Senator Boxer. OK. Well, let me, I will just make a final 
comment and then pass it on to Ranking Member Inhofe.
    What you said is really key. I would bet that if we went 
outside and just asked anybody walking by if they thought that 
chemical companies have to do tests and prove the chemicals 
safe before it is used people would say of course. They would 
think that would be the case, that a chemical has to be proven 
safe before it is used. In actuality, under the law currently, 
the EPA has to prove it unsafe. Is that correct?
    Mr. Jones. That is correct, Senator.
    Senator Boxer. OK. So, what Senator Lautenberg is doing, 
which I so strongly support, is he is doing the common sense 
thing. He is saying, chemical companies, make sure your product 
is safe. Let us not have a series of disasters, cancers, all 
kinds of problems, after you introduce a new chemical. Prove it 
safe first. And then that would turn this thing around to a 
place that I think the people of America already believe is the 
case.
    So, thank you very much.
    Senator Inhofe.
    Senator Inhofe. Thank you, Madam Chairman.
    Perhaps Mr. Jones, because of my position on the Armed 
Services Committee, I have gotten a lot of concerns expressed 
as those were expressed in the letter that I made a part of the 
record. And in your April 2nd report it says downstream users 
believe that there will continue to be critical military and 
aeronautical uses of Deca-BDE after December 31, 2013.
    Now, I would like to ask you, did EPA actually consult 
these people prior to--at any time during this process? And if 
so, what will you be doing after this point, say this thing 
passes?
    Mr. Jones. Thanks, Senator Inhofe. So, you are referring to 
the phase-out of Deca-BDE, which becomes effective at the end 
of 2013. The agency is working with aircraft manufacturers as 
well as the Department of Defense to make sure that we fully 
understand their need for flame retardancy in aircraft, which 
we think it is very important that aircrafts are safe from 
fires, as you referenced in your testimony. And so, we are 
going to continue to work with DOD and the aircraft 
manufacturers to make sure they have the tools to ensure that.
    Senator Inhofe. That is good. Let me just ask you, if you 
would do for the record and have it--so that we will have it 
writing and give me a chance to look at it, would you read the 
two documents that I made as a part of the record and respond 
to those documents for me as to your feelings, of you and the 
EPA?
    Mr. Jones. Absolutely, sir.
    Senator Inhofe. The other thing I wanted to ask you, to 
better understand where the EPA is on this, have you formally 
taken a position on the Lautenberg legislation?
    Mr. Jones. The Administration and myself, as part of that, 
have not taken a position on Senator Lautenberg's bill.
    Senator Inhofe. OK. And have you provided policy advice or 
technical support to Senator Lautenberg about the latest 
revisions?
    Mr. Jones. My staff has been providing technical support to 
Senator Lautenberg for actually a number of years.
    Senator Inhofe. All right. And have you done any sort of 
review or analysis of S. 847, internally or for other purposes? 
And if so, could we be provided with that information?
    Mr. Jones. Simply technical analysis as opposed to any kind 
of policy analysis.
    Senator Inhofe. All right. Internally?
    Mr. Jones. Yes, that is right, provided to Senator 
Lautenberg's staff.
    Senator Inhofe. I see. All right. Thank you very much.
    Thank you, Madam Chairman.
    Senator Boxer. Thank you very much, Senator.
    Senator Lautenberg.
    Senator Lautenberg. Thank you. We have looked at these 
things and tried to evaluate where we are. I never liked this 
thing.
    [Laughter.]
    Senator Boxer. We need to hear you.
    Senator Lautenberg. I will shout.
    [Laughter.]
    Senator Lautenberg. I mentioned that Senator Snowe and I 
recently sent a letter to the EPA, signed by 24 of our Senate 
colleagues, applauding EPA's current actions on flame 
retardants. The letter also expressed concern that EPA's 
authority to address these toxic flame retardants is limited 
under our current chemical safety law, the Toxic Substances 
Control Act.
    Does EPA's limited authority under TSCA prevent the agency 
from providing the kind of protection that Americans want for 
their health risks of flame retardants?
    Mr. Jones. Thanks, Senator Lautenberg. I believe that it 
does. As I stated this morning and at other hearings, the 
burden is on the EPA to determine that these products are not 
safe. So, had we the authority to insist that the manufacturers 
demonstrate safety before they are on the market, I think it 
would significantly increase our confidence and the American 
public's confidence that these products that are on the market 
are safe.
    Senator Lautenberg. Americans have among the highest blood 
concentrations of chemicals in the world. How does EPA's legal 
authority to address risk from industrial chemicals compare to 
authority on other countries, the Euro countries and other 
countries around, our neighbor, Canada? How do we compare with 
our maintenance of the best protections that we can develop 
compared to these countries?
    Mr. Jones. Thank you, Senator. Without at all making 
comparisons about the adequacy of other countries systems, it 
is pretty clear that Canada and the European Union have 
significantly more robust processes in place. They generally 
require the generation of health and safety data for chemicals 
that are sold on the market.
    Senator Lautenberg. Chemicals that are manufactured in the 
European Union? And the significance?
    Mr. Jones. As long as, if it sold in the European Union, 
whether is it manufactured there or not, the generation of 
health and safety data.
    Senator Lautenberg. The EPA has determined that PBDE flame 
retardants, and you said this, may be persistent, 
bioaccumulative, and toxic to both humans and the environment. 
What can we do to help those who are--have signs of the 
chemicals in their bodies at this point? We know that there is 
an effect that is negative on pregnancies. Is there anything 
that we can do to help ameliorate the conditions that these 
people find themselves in?
    Mr. Jones. Well, I think the most important thing we can do 
is what has happened and to keep that, the direction it is 
going in, the right direction, which is that those chemicals 
have been removed from the market. We are fortunate that the 
manufacturers of them have voluntarily agreed to remove them 
from the market. And so one of the things that we are doing to 
backstop that is to put in place a significant new use rule 
which should keep other manufacturers who may not have 
voluntarily agreed to such restrictions from entering the 
market without coming to the agency first where we would have 
to do a complete assessment.
    Senator Lautenberg. So, it is fairly obvious then, Mr. 
Jones, is it not, that companies realize a that there is a risk 
to people in our society from exposure to these chemicals, and 
second, is there not, in your judgment--and if I am stretching 
you, please say so--that to assume that the manufacturers would 
welcome an opportunity to have a uniform standard across the 
country that, so that there are a continuum of State decisions 
that may vary from State to State?
    Mr. Jones. As a general matter, I have learned over my 
career not to try to speculate into what goes on in the minds 
of----
    Senator Lautenberg. Oh, that is too bad.
    Mr. Jones. But I will say in conversations I have had with 
manufacturers they are struggling with the patchwork of 
regulations that is developing in the United States.
    Senator Lautenberg. Thank you.
    Senator Boxer. Thank you.
    Senator Crapo.
    Senator Crapo. Thank you, Madam Chairman.
    Mr. Jones, I would like to ask first a couple of questions 
to you about EPA's position on Senate Bill 847. In your 
testimony at the Appropriations Subcommittee at which you 
testified last week, it seemed that you endorsed Senate Bill 
847 through your comments but did not use the specific words of 
support or endorsement. And for that reason, I think we need to 
clarify where the EPA and the Administration stand on the bill. 
Can you tell us whether the EPA has, in fact, take a formal 
position on Senate Bill 847?
    Mr. Jones. Senator Crapo, thanks for the question. The EPA, 
nor the Administration, has not taken a position on Senator 
Lautenberg's bill.
    Senator Crapo. Does the Administration plan to do so at any 
time soon?
    Mr. Jones. I am not aware of any plans for a statement of 
an Administration position on that bill at this time.
    Senator Crapo. Has the Administration convened an 
interagency review of the legislation? Or do you know if that 
is intended to take place?
    Mr. Jones. The Administration has not convened such a 
group.
    Senator Crapo. All right. Thank you.
    Also, just to move on to another topic, at your testimony 
last week before the Senate Appropriations Committee hearing, 
you stated that the EPA might have made a different pre-
manufacturing notice determination in 1995 about the new flame 
retardant chemicals if TSCA has required the submission of more 
robust hazard exposure and use data to assess their risks.
    Can you explain to me a little more specifically what you 
referred to there that could have been provided but was not 
allowed to be sought under current statutory authorities?
    Mr. Jones. Sir, as I mentioned, the burden is on the agency 
to determine whether or not we think a new chemical meets the 
standard. And because we did not have data on the persistence 
of the bioaccumulation, we were using models that we had to try 
to estimate that. Unfortunately, for those particular compounds 
those models proved to be ineffective, so they did not flag the 
persistence and the bioaccumulation of the chemical.
    As a general matter, for chemicals coming in that are new 
that are persistent and bioaccumulative, because those two 
features tend to create problems over time, we insist on a much 
more robust health and safety testing. So, had we known they 
were persistent and bioaccumulative, we would have required the 
manufacturer--we would likely have required the manufacturer to 
generate health and safety data before entering the 
marketplace.
    Senator Crapo. But you had no authority to obtain that 
information?
    Mr. Jones. We did, but as I said, if we do not know of the 
persistence and the bioaccumulation, and in this case our 
models were not good at predicting it, we did not because the 
practice was if you do not have persistence or bioaccumulation 
we are not going to insist on the generation of that data.
    Senator Crapo. So, if the models were defective and did not 
tell you the information you should be seeking, but you did 
have statutory authority to obtain that information had you 
known, is it not a problem with the models?
    Mr. Jones. Well, one could say it is a problem with the 
overall structure. If the models are failing us across the 
board, that would put us in the position of requiring everyone 
to generate health and safety data before they are on the 
market.
    Senator Crapo. So, what, I guess what I am trying to get at 
is what do we need to do statutorily to fix that problem?
    Mr. Jones. We think that the statute needs to turn the 
burden around for the manufacturer to provide the agency the 
information necessary to demonstrate safety of the compound. 
And there are plenty of ways that can be done. Generally 
understanding characteristics like persistence, 
bioaccumulation, and toxicity is a key part of that.
    Senator Crapo. TSCA Section 7 provides EPA the authority to 
regulate imminent hazards caused by chemical substances. Do you 
agree that is a pretty broad authority under Section 7?
    Mr. Jones. I have to admit, Senator Crapo, I have not spent 
much time with Section 7 in my tenure at EPA. So I do not feel 
prepared to answer that.
    Senator Crapo. OK. As I review it, it appears that it is a 
pretty broad authority, and I am not aware of whether the EPA 
has ever even exercised its Section 7 authority. Again, I am 
getting at the question of what authorities the EPA does have 
now to achieve the necessary evaluation that you describe. So I 
would appreciate it if you would provide me with further 
information after you meet back with your staff.
    Mr. Jones. Sure. I would be happy to.
    Senator Crapo. That is all I have, Mr. Chairman.
    Senator Lautenberg [presiding]. Senator Merkley.
    Senator Merkley. Thank you very much, Senator Lautenberg. 
And I must say that I was very struck by the Chicago Tribune 
story that laid out a history in which it noted that use of 
these flame retardants really gained steam when the cigarette 
industry was looking to provide an alternative focus for the 
public in terms of home fires and get away from the cigarette 
in the sofa explanation. Then, after the retardants started to 
become widely used, of course, those who make the retardants 
enjoyed the possibility of continuing to promote their use by 
engaging in kind of very dramatic testimony about children 
dying in fires.
    And what this article in the Tribune speaks to is that, and 
I will just quote the first paragraph or couple of paragraphs 
here, before California lawmakers last year, the burn surgeon 
drew gasps from the crowd as he described a 7-week-old baby 
girl who was burned in a fire started by a candle while she lay 
on a pillow that lacked flame retardant chemicals.
    Now, this is a tiny little person, no bigger than my 
Italian Greyhound at home, said Heimbach, gesturing to the 
baby's size, approximately the baby's size, half of her body 
was severely burned, she ultimately died after about 3 weeks of 
pain and misery in the hospital. His passionate testimony about 
the baby's death made the long-term health concerns about flame 
retardants voiced by doctors and environmentalists and 
firefighters sound abstract and petty.
    But there was a problem with this testimony. It was not 
true. Records show that there was no dangerous pillow or candle 
fire. The baby he described did not exist. Neither did the 9-
week-old patient who Heimbach told California legislators died 
in a candle fire in 2009. Nor did the 6-week-old patient that 
he told Alaska lawmakers was fatally burned in a crib in 2010.
    Heimbach is not just a prominent burn doctor. He is a star 
witness for the manufacturers of flame retardants. His 
testimony, the Tribune found, is part of a decade's long 
campaign of deception that has loaded the furniture and 
electronics in American homes with pounds of toxic chemicals 
linked to cancer, neurological defects, developmental problems, 
and impaired fertility.
    Then the article goes on to note that the industry often 
points to a Government study from the 1980s as proof that flame 
retardants save lives. But the study's lead author, Mr. 
Babrauskas, said in an interview that the industry has 
distorted his findings and that the amount of retardants used 
in household furniture does not work. The fire just laughs at 
it, he said.
    So, here we have kind of testimony that the retardants do 
not work, testimony that the retardants cause all of these 
other kinds of problems, testimony that the amount in the 
American baby has doubled roughly every 2 to 5 years since--I 
believe it was since 1980. Is this not exactly the type of 
problem that the EPA is there to watch for? And I just heard 
you testify that we did not look into it, and yet we have these 
blood studies that show that it was doubling every couple of 
years in the body. Certainly, that must speak to the 
bioaccumulative presence.
    Has the EPA been asleep at the switch, and has it woken up?
    Mr. Jones. Thanks, Senator Merkley. As I mentioned earlier 
today, one of the major classes of flame retardants, PBDEs, 
have been phased out in the United States. There is one last 
chemical that is at the end game of its being phased out. But 
that was done through a voluntary agreement with the 
manufacturer for a couple of reasons. One is that it was very 
hard for us to get the health and safety data that we needed to 
evaluate those compounds. And then, taking a chemical off the 
market under TSCA has proven to be incredibly difficult for the 
Government. We were fortunate in this case that the 
manufacturers were willing to take those compounds off the 
market.
    There are a number of other flame retardants that are on 
the market, and we are going to begin to assess their safety in 
the next fiscal year, 2013, including two of the flame 
retardants mentioned in the Chicago Tribune story. So EPA has 
not been living up to, I think, what the American public 
expects, but I think a good part of that has to do with the 
challenges that the Toxic Substances Control Act creates for 
us.
    Senator Merkley. When you said that several had been phased 
out, there are several different versions of this, the Octa 
version and the Deca version. Is that what you are speaking to? 
These different versions?
    Mr. Jones. Penta and Octa have been phased out. Deca is in 
the end of its phase-out right now.
    Senator Merkley. One of the things that is pointed out is 
that infants are particularly susceptible to this because they 
are crawling around on the carpet, and the carpet collects the 
dust from various products that have this as well as some of 
the carpets themselves have it in it. And so a child being very 
close to the carpet, playing on the carpet, breathing inches 
away from the carpet, is far more exposed than an adult. Is 
this an issue that you have studied and looked into?
    Mr. Jones. Ultimately the assessments that we do for these 
compounds are going to include that route of exposure that you 
have described which is that the compound often either leaches 
out or from rubbing comes off of the originally treated 
material and ends up in house dust and often can end up in 
carpet or on floors and thus lead to a hand-mouth exposure.
    Senator Merkley. Thank you.
    Senator Boxer. Thank you, Senator.
    Senator Vitter.
    Senator Vitter. Thank you, Madam Chair, and thank you, 
Administrator Jones.
    As I mentioned in my opening statement, I think a big 
hurdle we face in this area generally is a dramatic erosion of 
broad-based confidence over several years in the science 
agencies like EPA uses. And I mention as a prime example of 
that this NAS study that underscored the inadequacy of that 
science. And it implicated pretty broadly the IRIS process. And 
as I also said, the EPA essentially acknowledged this and 
through Dr. Paul Anastas committed to major core reforms to 
address that in the IRIS process.
    Since then, what are the major core reforms to the IRIS 
process that have been implemented by the EPA? What are they, 
and how do they address these concerns and this erosion of 
confidence?
    Mr. Jones. Thanks, Senator Vitter. The principal reform 
that the agency has already embraced is increasing the public 
participation associated with IRIS reviews. Internally, we are 
also broadening the offices outside of ORD that participate in 
IRIS assessments. You may or may not know that the Office of 
Research and Development manages the IRIS process as opposed to 
my office.
    Senator Vitter. I am aware of that. But go back to the 
first thing you said. Public participation. What do you mean by 
that? How does that attack the problems I cited?
    Mr. Jones. Transparency has been one of the tools the 
agency has long relied on to ensure the integrity of our 
scientific processes. And so allowing people who are not 
employees of the agency to look at our work and give us their 
feedback we have found to be a very effective means to ensuring 
the integrity of our science processes.
    Senator Vitter. So, you are talking about peer review?
    Mr. Jones. Both peer review as well as just broad public 
comment.
    Senator Vitter. And what truly independent peer review is 
now mandated in the IRIS process?
    Mr. Jones. I am not familiar with the specific requirements 
that the IRIS program has put in place for independent peer 
review. We are--the compounds that our offices work with them 
on have all had internal peer reviews associated with them.
    Senator Vitter. OK. Well, let me just underscore that a lot 
of folks would not consider that robust and adequate. Usually, 
peer review means very independent peer review, clearly outside 
the academic institution or the agency that something is 
emanating from.
    Also related to this, as you know, the last omnibus 
appropriation bill mandated further reviews by National Academy 
of Sciences about this further contracts. Can you tell us the 
status of those NAS reviews and contracts?
    Mr. Jones. I am not familiar, Senator Vitter, with the 
status of contracts related to the appropriations requirements.
    Senator Vitter. OK. If you can have someone follow up and 
add that to the testimony because that goes directly to my 
concerns? Thank you.
    Senator Boxer. Colleagues, we have been joined by two 
colleagues. I think we are going to move to the panel, and then 
I will call on Senator Carper first, then Senator Cardin, then 
we will go back and forth.
    Is that OK with you, Senator Vitter?
    Senator Vitter. Yes.
    Senator Boxer. OK. Thank you. So, we thank you very much.
    We are very honored to call forth panel No. 2. Hannah 
Pingree, a Former Speaker of the Main House of Representatives, 
speaking to us as a mom. She will discuss State efforts to ban 
certain flame retardant chemicals. Dr. Heather Stapleton, 
Assistant Professor of Environment Chemistry at the Nicholas 
School of the Environment at Duke. She will discuss the science 
on the health effects of certain flame retardants. Those are 
both majority witnesses.
    Two minority witnesses. Marshall Moore, Director, 
Technology, Advocacy and Marketing, Great Lakes Solutions, a 
Chemtura business. They will speak about chemicals, including 
flame retardants. William Rawson, another minority witness, 
Partner, Chair, Environment, Land and Resources Department, 
Latham & Watkins, attorney for chemical manufacturers including 
of flame retardants.
    And Tony Stefani, President, Founder, San Francisco 
Firefighters Cancer Prevention Foundation. This is a majority 
witness, and I am proud, a Californian, who is a cancer 
survivor. He will discuss local efforts to help firefighters 
who are exposed to chemicals during and after fires, including 
with medical monitoring.
    We are going to start with Hannah Pingree. We welcome you.

  STATEMENT OF HANNAH PINGREE, MOTHER, FORMER SPEAKER OF THE 
                 MAINE HOUSE OF REPRESENTATIVES

    Ms. Pingree. Chairwoman Boxer, Senator Lautenberg, Ranking 
Member Inhofe, and members of the Committee, my name is Hannah 
Pingree, and I thank you for this invitation.
    I am here as the Former Speaker of the Maine House. I am 
also here as the mother of a young daughter, and I am 6 months 
pregnant. I am here on my own behalf, but I also work as a 
consultant for Safer Chemicals, Healthy Families, the national 
coalition working to protect our kids from the health impacts 
of toxic chemicals.
    I have been involved in chemical regulation issues for 
nearly 10 years as a legislator and advocate. But today, as a 
parent, I am more concerned than ever about the current state 
of chemicals in our products.
    Today we know that the umbilical cord blood of every 
American pregnant woman tested shows multiple chemicals such 
that our babies are born into this world with toxins in their 
bodies that we know can harm their health and their 
development.
    At the age of 30, I participated in a study of 13 Maine 
people called Body of Evidence in which I was tested for 71 
chemicals. I had the second highest levels of phthalates and 
mercury in our study. My mercury levels were above the safety 
standard for protection of a developing fetus, and I had levels 
of flame retardants, arsenic, PFCs, and BPA. They were all 
cause for concern. As a lifelong resident of a small, offshore 
island with no major industry or pollution, without a doubt the 
chemicals in me came from products in my home and the food that 
I eat.
    These results also arrived in the midst of our Maine 
legislative work to ban flame retardants in which experts from 
the industry told us that these toxins do not buildup in 
people's bodies above the safety threshold. Our study suggested 
that they were wrong.
    Because of the failure of TSCA to regulate thousands of 
chemicals in our products, States across the country have been 
forced to step in to protect public health. Since 2003 more 
than 150 policies in 30 States have been passed to limit 
exposure to toxic chemicals. The vast majority of these laws 
were passed with overwhelming majorities of Democratic and 
Republican legislators and Governors.
    Across the country, lawmakers experiences with the chemical 
industry in passing these laws echoed those detailed in the 
spring Chicago Tribune expose which revealed a pattern of 
unethical behavior. Legislators were misled and even lied to 
about the health impact of chemicals and the ability of flame 
retardants to prevent fires.
    In Maine, I sponsored successful bills to ban brominated 
flame retardants, known as PBDEs, in both 2004 and 2007. In our 
first interactions with industry, their concerns, their experts 
argued that these chemicals were safe and that our health 
concerns were alarmist. Today we know that these flame 
retardants are associated in delays with brain impacts in kids, 
reproductive problems, and cancer risks. A new study just 
released has linked exposure to these chemicals during 
pregnancy with increased autism risk.
    In 2007 I brought forward a phase-out of the flame 
retardant Deca used in everything from TVs to mattresses to 
upholstery. The bill attracted more money and deception than 
any other piece of legislation during my tenure in the House. 
The chemical industry paid for weeks of TV and newspaper ads as 
well as radio, mail, and robo-calls. Their front group, called 
Keep America Fire-Safe, paid for ads that claimed that Maine 
legislators were seeking to weaken fire safety accompanied by 
B-roll of a burning house.
    Despite their campaign, few Mainers contacted us. And 
despite their name, the industry had no support from fire 
safety groups. Both the Maine fire chiefs and our firefighters 
union were among our most passionate supporters.
    The industry flew in a man for the public hearing who had 
been seriously burned as a child. When questioned by committee 
members, he admitted that his burns were not caused by a lack 
of flame retardants and that he was a paid witness for the 
industry. Their goal was only to mislead and to shock. Luckily, 
those tactics were offensive to Maine legislators. In the end, 
the Deca ban was supported by unanimous vote in the House and 
the 32 to 2 vote in the Senate and signed by our Governor.
    We learned in Maine and repeatedly across the country that 
this industry's primary tactic is to deny and mislead, hide 
health information, and then agree to voluntary phase-out of 
the chemical. The industry, after denying any health concerns 
in Maine in 2007, agreed in 2009 to a U.S. phase-out of Deca 
for virtually all consumer uses.
    The challenge of sorting out chemicals in our products is 
overwhelming as a parent. Before my daughter was born, my 
husband and I researched crib mattresses, and after reading 
countless Web sites and blogs, we spent a couple of hundred 
extra dollars for a mattress free of flame retardants. Keeping 
a child safe in their bed should not take extra research or 
money.
    Despite our decision to buy a green mattress, we still have 
our old couch in the living room and our mattress in our bed, 
both likely treated with several pounds of flame retardants 
each. Whether it is our couches, our kids toys, our car seats, 
there is no required disclosure or warning signs about 
chemicals and their health impacts. And that is why we moms and 
parents across the country need leadership from you, our 
Federal leaders. We need safe products for our kids and our 
families.
    In closing, I want to thank Senator Lautenberg for 
championing the Safe Chemicals Act, Senator Boxer for her 
leadership, and I want to thank my two Senators, Senators Snowe 
and Collins both for joining the bipartisan call for an 
overhaul of the nation's chemical safety laws.
    The system has been ineffective since the passage of TSCA 
in 1976, the year I was born. I understand that this Committee 
will consider the Safe Chemicals Act tomorrow, and for the sake 
of my kids' health, your children and grandkids and millions 
across the country, I urge this Committee to take immediate 
action to remedy our broken system.
    Thank you.
    [The prepared statement of Ms. Pingree follows:]
    
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
    
    
    Senator Boxer. Thank you so very much.
    We will hear from the next majority witness, Dr. Heather 
Stapleton, Associated Professor of Environmental Chemistry, 
Environment Sciences and Policy at the Nicholas School of the 
Environment at Duke University.
    Welcome.

STATEMENT OF HEATHER M. STAPLETON, PH.D., ASSOCIATE PROFESSOR, 
      NICHOLAS SCHOOL OF THE ENVIRONMENT, DUKE UNIVERSITY

    Ms. Stapleton. Good morning. I wish to thank Senator 
Lautenberg, Senator Crapo, and Senator Boxer and the other 
members of this Committee for inviting me to testify here 
today.
    I am Heather Stapleton, an Associate Professor of 
Environmental Chemistry at Duke University. For the past 10 
years, I have been conducting research on flame retardant 
chemicals, and today I would like to talk to you about my 
research and what we know about human health risks.
    Current scientific evidence demonstrates that the U.S. 
population is exposed to flame retardant chemicals used in 
consumer products at levels that are approximately 10 times 
higher than levels in European and Asian countries, most likely 
due to difference in our flammability standards.
    According to research conducted by the Centers for Disease 
Control and Prevention, 99 percent of the U.S. population has 
flame retardant chemicals in their bodies. Studies have also 
shown that children have much higher body burdens of these 
chemicals compared to adults. This is a concern given that 
health studies found that higher body burdens of these 
chemicals were associated in reductions in IQ and motor skills 
in children, lower birth weights in infants, changes in hormone 
levels, and a reduction in a woman's potential to become 
pregnant.
    In my opinion, this evidence warrants changes in the way 
these chemicals are currently applied to consumer products and 
highlights a need to reduce our exposures in vulnerable 
populations such as infants and children.
    I would now like to summarize several key findings from my 
research. It is impossible for an average person to avoid 
exposure to flame retardants. The primary route of human 
exposure to these chemicals is from inadvertent ingestion of 
dust particles in the home which is more pronounced for infants 
and young children that are more vulnerable to chemical 
exposures.
    Over the past 8 years, we have analyzed hundreds of samples 
of indoor dust collected from different regions of the U.S., 
and today I have not found one sample that does not contain the 
flame retardants known as PBDEs.
    An average consumer also does not have the choice or an 
option to buy products that are free of flame retardants. There 
are no labels indicating whether or not a flame retardant 
chemical has been applied. The only way to determine if a 
product is treated with these chemicals is to take a sample of 
that material and chemically analyze it in a laboratory using 
very expensive analytical equipment. This allows us to 
determine the chemical structures of these flame retardant 
formulations which are often proprietary and also allows us to 
determine their concentration in the products.
    My research team has analyzed over 100 samples of 
polyurethane foam collected from residential furniture 
purchased in the U.S. and found that more than 85 percent is 
indeed treated at levels that can be as high as 10 percent by 
weight of the foam, as are most baby products that are 
considered furniture items. This includes nursing pillows, 
sleep positioners, baby mats, car seats, and others. Infants 
spend almost 24 hours a day in intimate contact with these 
items, and no risk assessments have been conducted to determine 
the level of exposure an infant receives during use of these 
products.
    The two most common flame retardants detected in furniture 
and baby products on the market today are chemicals known as 
chlorinated tris and Firemaster 550, replacements for the now 
phased out PBDEs. Chlorinated tris is considered a probable 
human carcinogen, and the Consumer Products Safety Commission 
estimated that a child's exposure to chlorinated tris from 
residential furniture would be 5 times higher than the 
acceptable daily limit. This assessment did not include 
children's exposure to chlorinated tris from baby products 
which would increase this exposure.
    In addition, a very recent study conducted by my colleagues 
and I found that exposure to Firemaster 550 in rodents resulted 
in obesity, changes in hormone levels, advanced puberty, and 
altered behavior at a level that was more than 10-fold lower 
than what the chemical company stated was the lowest level at 
which any adverse effects would be observed.
    Our research also shows that these same two flame 
retardants are now found in more than 95 percent of the U.S. 
homes, and levels in indoor environments are just as high as 
the levels of PBDEs, implying that exposure levels are the 
same.
    These points highlight what I call the chemical conveyor 
belt. When one chemical is phased out, another similar chemical 
is often used as a replacement, and we know less about its 
potential effects than a chemical it replaced.
    History has shown us that if often takes millions of 
taxpayer dollars and several decades collecting data on these 
new chemicals before we realize there is a health hazard. We 
should, in my opinion, consider how this process could be 
reformed.
    In closing, I would like to urge this Committee to strongly 
consider legislation that would reduce our children's exposure 
to flame retardant chemicals that have known health effects 
which can be done without compromising fire safety as was 
demonstrated at a hearing last week.
    I have dedicated much of my scientific career to testing 
consumer products for these chemicals to provide information on 
sources within the home, and as a result I have received 
numerous e-mails and phone calls from average Americans asking 
where they can find flame retardant-free products or how they 
can reduce their exposure. Unfortunately, I cannot provide all 
the answers because we still do not yet fully understand how 
many products are treated or exactly what chemicals are used in 
all applications.
    In my opinion, both as a scientist and as a mother myself, 
consumer products should be labeled to indicate specific 
chemical treatments to provide consumers a choice, particularly 
when it involves the use of suspected carcinogens in baby 
products.
    Last, I would just like to note that my research has been 
funded by the National Institutes of Environmental Health 
Sciences and the National Science Foundation.
    I thank you for considering my testimony.
    [The prepared statement of Ms. Stapleton follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
    
   
    
    Senator Boxer. Thank you very much.
    And now we turn to our two minority witnesses, the first of 
whom is Marshall Moore, Director, Technology, Advocacy and 
Marketing, Great Lakes Solution, a Chemtura business.
    And you can speak about the manufacture, including of flame 
retardants. Go ahead.

STATEMENT OF MARSHALL MOORE, DIRECTOR, TECHNOLOGY, ADVOCACY AND 
     MARKETING, GREAT LAKES SOLUTIONS, A CHEMTURA BUSINESS

    Mr. Moore. Thank you, Senator Boxer, Senator Lautenberg, 
and the Committee.
    Flame retardants have received a lot of attention recently, 
some of which is inaccurate and misleading. So, I want to be 
very clear. Chemtura stands by its products. And we have acted 
proactively with EPA and others to lead our industry in the 
introduction of greener alternatives because of a corporate 
commitment to continuous improvement. That is why we are 
participating fully in this hearing.
    I will emphasize three points. One, flame retardants are 
effective in reducing the flammability of synthetic materials. 
Two, EPA has conducted an extensive assessment of new flame 
retardants to ensure that they are safe for use. And three, 
Chemtura acts proactively to develop new flame retardant 
products with improved environmental profiles.
    Our scientists are working every day to find better, safer, 
and greener ways to mitigate the age old risk of fire. By 
adding flame retardants to polyurethane foam, which is highly 
flammable when left untreated, manufacturers have been able to 
comply with the nation's strictest furniture flammability 
standard, California Technical Bulletin 117. For over three 
decades, flame retardants have enabled manufacturers to meet 
this standard by reducing the flammability of their products.
    The introduction of this standard coincided with a dramatic 
decrease in the number and severity of house fires according to 
data compiled by the National Fire Protection Association. A 
number of labs have replicated these results, most recently at 
Southwest Research Institute.
    In a study funded by the National Institute of Justice, Dr. 
Matthew Blais tested foam treated with flame retardants to meet 
the California standard. He concluded, ``The use of California 
Technical Bulletin 117 foam increases the fire safety of home 
furnishings by delaying the onset of free burning conditions 
and reducing the total energy released by the event.''
    Scientific data show the relative risk associated with our 
flame retardants is extremely low and is far outweighed by the 
societal benefits of this advancement that reduces the number 
and severity of fires.
    From an environmental perspective, EPA required rigorous 
review of TBB, a component of Firemaster 550. This product was 
designed to provide the same or better flame retarding 
properties in furniture foam as earlier products but with an 
improved environmental profile. Chemtura submitted 15 studies 
to EPA during the assessment of TBB. These included studies 
designed to assess the potential exposure of consumers and the 
persistence and potential for bioaccumulation. Based on these 
studies, our scientists concluded, and EPA agreed, TBB is less 
persistent and less likely to bioaccumulate than the product it 
replaced.
    In the years that followed, Chemtura conducted additional 
environmental fate and toxicity studies. They indicated that 
the levels at which observed effects would be expected are 
orders of magnitude higher than the predicted exposure levels. 
That is, the risk is minimal.
    The product was subject to Government restrictions until 
EPA received those studies, a process that took more than 13 
years. Chemtura will be submitting 17 additional studies, all 
conducted for registrations in other regions, as part of EPA's 
TSCA Work Plan Chemicals Program. We welcome the opportunity to 
work with regulators to conduct a fresh, objective, and 
scientific review of this data as well as studies conducted by 
academic researchers.
    Based on our experience, the evaluation of new chemical 
substances under TSCA has been effective and thorough. Yet, we 
believe that TSCA can be modernized to be more efficient, to 
use current scientific technologies, and to reflect our 
improved understanding of how chemicals interact with the human 
body and the environment. You have our commitment to help in 
this effort.
    In conclusion, Chemtura has fully complied with chemical 
management regulations while also leading the industry in the 
introduction of greener alternatives. We have shown our 
commitment to continuous improvement by voluntarily replacing 
older products with new options that are better, safer, and 
greener.
    Everyone in this room wants the same thing, reduced risk of 
fire, greener chemistry that results in efficient products with 
reduced environmental impact, and a regulatory process that 
promotes innovation. Chemtura is proud to have led the industry 
in introducing products that meet the most rigorous fire safety 
standards while protecting human health and the environment.
    Thank you once again for the opportunity to appear before 
you today.
    [The prepared statement of Mr. Moore follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
    
    
    
    Senator Boxer. Thank you, sir.
    And now we turn to the second minority witness, William 
Rawson, Partner, Chair, Environment, Land and Resources 
Department, Latham & Watkins, attorney for chemical 
manufacturers including of flame retardants.
    Welcome.

   STATEMENT OF WILLIAM K. RAWSON, PARTNER AND CHAIR OF THE 
 ENVIRONMENT, LAND AND RESOURCES DEPARTMENT IN WASHINGTON, DC, 
                        LATHAM & WATKINS

    Mr. Rawson. Madam Chair and distinguished members of the 
Committee, good morning. Thank you for inviting me to testify.
    I have co-authored a book on the Toxic Substances Control 
Act and have practiced environmental law for 25 years. I have 
been asked to testify today by Albemarle Corporation, a 
domestic producer of flame retardants, and ICL-IP, an Israeli 
company that imports flame retardants.
    I have a strong appreciation for EPA's mission and have 
worked closely with many EPA managers and staff over the years. 
I have great respect for their efforts in support of EPA's 
mission.
    All major stakeholders agree that amendments to TSCA are 
needed. To make progress toward amendments, we need to find 
common ground. Executive Order 13563, signed by President 
Barack Obama last year, states a regulatory system must protect 
public health, welfare, safety, and our environment while 
promoting economic growth, innovation, competitiveness, and job 
creation. TSCA amendments should meet those objectives.
    The Executive Order directs each agency to ``propose or 
adopt a regulation only upon a reasoned determination that its 
benefits justify its costs'' and to ``tailor its regulations to 
impose the least burden on society consistent with obtaining 
regulatory objectives.''
    My testimony focuses on TSCA Section 5, which governs 
approval of new chemicals; Section 4, which governs testing of 
existing chemicals; and Section 6, which provides authority to 
regulate existing chemicals.
    The strength of Section 5 lies in its flexibility, which 
allows EPA to raise or lower the bar according to the 
properties of each proposed new chemical. Since TSCA was 
enacted in 1976, the company seeking approval of a new chemical 
in every case has either agreed to EPA's data requirements and 
restrictions or withdrawn its pre-manufacture notice. Several 
thousand chemicals have been approved with restrictions or not 
approved at all. There has been no litigation under Section 5. 
Section 5, in my judgment, is doing a good job of meeting the 
objectives of the Executive Order.
    The Senate bill would mandate a new round of EPA review for 
every new use of a previously approved chemical and every 
significant increase in use of an existing chemical. The 
implications for EPA's overburdened resources, for EPA's 
ability to prioritize, and for industry's ability to innovate 
would be very significant.
    Section 4. EPA has two ways under TSCA Section 4 to require 
toxicity testing of existing chemicals, a risk-based approach 
and an exposure-based approach. Case law shows that the burden 
is very low. The Section 4 criteria, in my judgment, provide a 
sound basis for deciding what testing is necessary to protect 
human health and the environment.
    Why are there not more test rules? One reason is that 
industry conducts a large amount of testing voluntarily. Also, 
many chemicals have been evaluated for testing under TSCA and 
have been determined to be a low priority for testing or not to 
need any testing at all.
    The Senate bill would not require EPA to consider potential 
for exposure before determining the need for testing. EPA has 
stated, ``The level, frequency, and duration of exposure of a 
chemical should always be considered when determining the 
necessity of additional testing.''
    Section 6. The asbestos rulemaking did not fail because of 
the statute. It failed because of errors in the rulemaking. 
This is explained in my testimony. Section 6 requires the EPA 
to adopt the ``least burdensome requirements necessary to 
address the identified risks. The Executive Order directs 
agencies to use the least burdensome tools for achieving 
regulatory ends.''
    The unreasonable risk standard in Section 6 is not unique 
to TSCA. The Federal pesticide statute has a similar standard. 
The Executive Order directs agencies to ``take into account 
benefits and costs, both quantitative and qualitative.'' The 
proposed reasonable certainty of new harm standard and proposal 
to require EPA to consider exposure from all sources, including 
those outside of EPA's jurisdiction, is not workable for all 
chemicals regulated under TSCA.
    The Senate bill would make a decision by EPA that a 
chemical fails to meet the safety standard immune from judicial 
challenge. Even arbitrary and capricious decisionmaking could 
not be overturned. That is very troubling.
    All stakeholders recognize the need for EPA to prioritize 
its resources. A rational prioritization scheme with reasonable 
timelines would give the public greater confidence that 
significant risks are being addressed in a systematic and 
timely manner.
    We need to understand which perceived shortcomings of TSCA 
derive from the statute and which derive from implementation. 
Proposed solutions should match the problems. Amendments should 
produce better decisions, not just easier decisions.
    The companies have committed voluntarily to end production 
and importation of Deca-BDE without EPA taking any action under 
TSCA Section 6. Substantial testing has been conducted by the 
companies without the need for any test rule under TSCA Section 
4. The companies support EPA's efforts to promulgate a 
significant new use rule under TSCA Section 5 that would apply 
to imported articles containing Deca-BDE.
    In conclusion, notwithstanding the voluntary phase-out, the 
companies believe that Deca-BDE is a safe flame retardant. 
Health Canada recently released a draft health assessment 
document----
    Senator Boxer. Mr. Rawson, will you wrap up, please?
    Mr. Rawson. May I just complete the last sentence, please?
    Senator Boxer. Sure.
    Mr. Rawson. Health Canada recently released a draft health 
assessment document that found adequate margins of exposure 
including for children.
    Thank you.
    [The prepared statement of Mr. Rawson follows:]
    
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
    
    
    Senator Boxer. Thank you, Mr. Rawson.
    Our final witness is Tony Stefani, President, Founder of 
San Francisco Firefighters Cancer Prevention Foundation. He is 
a majority witness. He is a cancer survivor. He is going to 
discuss local efforts to help firefighters who are exposed to 
chemicals during and after fires including with medical 
monitoring.
    Welcome.

 STATEMENT OF TONY STEFANI, FOUNDER, PRESIDENT, SAN FRANCISCO 
           FIREFIGHTERS CANCER PREVENTION FOUNDATION

    Mr. Stefani. Thank you, Chairman Boxer, and good morning.
    My name is Tony Stefani. I am a retired captain from the 
San Francisco Fire Department with 28 years of service. I would 
like to begin by giving you a brief history of myself and our 
foundation.
    I spent the last 13 years of my career as a captain at 
Rescue 1, I am proud to say one of the busiest companies in the 
United States. After 27 years on the job, I was diagnosed with 
transitional cell carcinoma, a rare form of cancer, in my right 
renal pelvis. I was told by my physician at UCSF it is normally 
found in people that are exposed to chemicals or in the 
chemical industry.
    During my treatment and recovery, two more firefighters 
from Station 1 contracted transitional cell carcinoma, only a 
more common form, bladder cancer. It also seemed like every 
month we were going to a funeral of another firefighter that 
had succumbed to some form of this hideous disease.
    In 2006, with the complete support of the department's 
administration and Firefighters Local 798, I formed a nonprofit 
foundation, the San Francisco Firefighters Cancer Prevention 
Foundation, that has been dedicated to the early detection and 
prevention of cancer in both our active and retired 
firefighters.
    Since its inception, we have conducted five major cancer 
screenings, and through these screenings we have identified 
five retired firefighters and one active firefighter with 
various forms of cancer. And at the time of these screenings, 
these individuals were not aware they had this disease.
    Our foundation has also been involved in three studies. The 
first was published in 2007 and was conducted by the Department 
of Urology at UCSF Medical Center, and it identified bladder 
cancer rates in the San Francisco Fire Department greater than 
the population in general and of a major concern for the entire 
firefighting profession.
    Firefighters are exposed every day in the same manner as 
the general population is to the effects of flame retardants 
that escape from household products and settle in dust, whether 
it be in their workplace or in their homes with their families. 
But once a firefighter enters a burning building, it is a 
completely different set of circumstances.
    Firefighters are fully aware that we work in a chemical 
cocktail every time we enter a building on fire. Does that 
hinder the fire extinguishment? The definitive answer there is 
absolutely not. It is our job to extinguish the fire, preserve 
life and property, and the job gets done.
    The firefighter's biggest fear is what occurs once the fire 
is extinguished and the overhaul process begins. It is during 
this period of time where off gassing occurs. Products of 
combustion have been extinguished, but the emission of toxic 
gases continues. We are now aware that even if all personal 
protective equipment remains in place on firefighters, 
brominated and chlorinated fire retardants have the ability to 
permeate this equipment. Additionally, if this equipment is not 
properly decontaminated immediately when returning to quarters, 
firefighters risk continual exposures every time they don them.
    A question that lingers in our profession right now is do 
these chemicals combine synergistically with other toxins in 
the atmosphere at a fire and actually exacerbate their 
carcinogenic properties? What we do know is that our rates of 
contracting various forms of cancer is increasing. We also are 
fully aware that these flame retardant chemicals bioaccumulate 
in our blood, our fat tissue, and in mother's milk.
    Chairman Boxer and honorable members of this Committee, I 
have before me a study that is soon to be released, and I have 
been given permission to talk about certain aspects of this 
study. The title of the study is Halogenated Flame Retardants, 
Furans, Dioxins and Other Persistent Organic Pollutants in the 
Serum of Firefighters from Northern California.
    The firefighters from Northern California that the study 
refers to is a cohort of 12 firefighters from San Francisco. 
These firefighters willingly gave their blood after two 
separate working fires in the city, and the study examined the 
levels and patterns of halogenated compounds in the serum of 
the firefighters and compares contaminant concentrations in 
this cohort with those in the general population and other 
studies in the United States and worldwide.
    The study of our firefighters showed polybrominated 
diphenyl ethers or PBDEs over 30 percent higher than the 
general population of California and over 60 percent higher 
than the general population of the United States. We had one 
firefighter with a PBDE level 11 times greater than the average 
of the general population, and the PBDE concentration in the 
San Francisco firefighters were 20 to 30 times higher than the 
levels found in the general population of Japan, Hong Kong, and 
the United Kingdom.
    Last Tuesday, I received an e-mail from Dr. Susan Shaw, one 
of the lead scientists of the study. In this e-mail, she states 
despite the small sample size, the paper reveals a wealth of 
information about the exposure of firefighters to a wide range 
of harmful chemicals during firefighting. It provides evidence 
that firefighters are exposed to cancer causing dioxins and 
furans, their congener profiles for brominated dioxins and 
furans, polybrominated diphenyl ethers, and perflourinated 
chemicals that are clearly indicative of exposure during 
firefighting.
    Another issue that we have to address in regards to flame 
retardants in chemicals is the rising cases of breast cancer we 
are seeing in our female firefighters in San Francisco. We have 
over 200 female firefighters in our department, the largest of 
any major metropolitan department in the United States.
    Senator Boxer. Excuse me. I am going to have to stop you 
there, and I will ask you questions about this as I go.
    [The prepared statement of Mr. Stefani follows:]
    
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
    
    
    
    Senator Boxer. What we are going to do, first of all, thank 
you all. We are going to start with Senator Carper. We are 
going to each have 10 minutes to question so we can really get 
to some of the issues here.
    Senator Carper.
    Senator Carper. Thank you. I will not use all of this. 
Thank you very much for allowing me, and thank you all for 
joining us today.
    First question is pretty simple, and I only ask that you 
keep your responses brief. But if you could, each of you, just 
share with us, maybe the single most important lesson that you 
all have learned or gained from your experiences in really 
focusing on this U.S. chemicals issue that you think we can 
learn from or benefit from. Just one. Single best.
    Would you like to go first?
    Mr. Stefani. Is that question posed----
    Senator Carper. For the whole panel.
    Mr. Stefani. I think what we have learned----
    Senator Carper. Just be brief.
    Mr. Stefani. What we understand right now is that these are 
important chemicals that have to be dealt with because of this 
bioaccumulative process that is actually proven in medical 
science right now.
    Senator Carper. OK. Thanks. Did you want to say something 
else?
    Mr. Stefani. No.
    Senator Carper. OK, fine.
    Mr. Rawson.
    Mr. Rawson. I think we should think of TSCA as providing a 
framework for making good decisions. But I do not think we 
should count the number of test rules promulgated or the number 
of Section 6 rules promulgated when deciding how effective it 
is. I think what we should look at is how can we best get EPA 
the information it needs, how can industry and EPA and other 
stakeholders work together to meet the objectives of TSCA.
    Senator Carper. All right. Thank you.
    Mr. Moore.
    Mr. Moore. In the context of the discussion on flame 
retardants, I think what I would most like to say is that, I 
guess, as a scientist, also as a father, I think in terms of 
looking at the risk of fires versus other risks in society. We 
cannot forget the risk of fires and the statistics showing that 
it is a clear and present risk and we have to take that into 
consideration in the entire discussion about the review of the 
risks and hazards associated with flame retardants, fires, and 
the use of those chemicals.
    Senator Carper. All right. Thank you.
    Ms. Stapleton. Dr. Stapleton.
    Ms. Stapleton. Just in regards to flame retardants and 
based on the research data I have collected and then what I 
have read in the peer reviewed literature it seems apparent to 
me that the potential health effects and other disadvantages of 
using these chemicals potentially outweigh any purported 
benefits that some industry members claim that they have in 
terms of their applications in some consumer products.
    Senator Carper. OK. Thank you.
    Ms. Pingree.
    Ms. Pingree. Thank you. Good question. I think as a former 
State legislator I would say our experiences in Maine, as 
highlighted by the Chicago Tribune and other States, what we 
learned is that the chemical industry does not always tell the 
truth. And they will do a variety of means to beat back 
regulation of chemicals, especially considering they are making 
considerable profits selling these chemicals.
    And in Maine, we had an industry front group. We had many 
of the companies represented at this table, the American 
Chemistry Council, spending huge amounts of money misleading 
legislators and doing whatever they could to deny that, for 
example, the chemical Deca had both health impacts and was 
building up in people.
    So I have great respect for all the folks up here, but I 
really would say as a parent I do not trust these companies to 
tell the truth about their chemicals, and I do not think the 
American public or you, as Senators, should either.
    I think that is my No. 1 learning, and I hope that that has 
been made clear through my testimony today.
    Senator Carper. OK. Thanks so much.
    Madam Chairman, I am going to ask unanimous consent to 
enter a statement for the record, and I have a couple of 
questions I would like to submit for the record. I am supposed 
to be in three places at once, so I am going to slip out.
    Senator Boxer. Oh, my goodness.
    Senator Carper. I appreciate you all being here and for 
this conversation today and the work that Senator Lautenberg 
and certainly Senator Inhofe and others have done on this 
issue.
    Thank you.
    Senator Boxer. Thank you. Senator Carper, thank you for 
coming by, because I think the question you asked was very 
important, I thought.
    I have a lot of questions, so if I run out of time I am 
going to take a second round. So, I am going to get to all of 
you.
    I will start with Ms. Pingree. Your testimony contains a 
letter from the Professional Firefighters of Maine to the 
American Chemistry Council that expresses shock and concern 
about an array of disturbing actions by member companies of the 
American Chemistry Council including the creation of a phony 
fire safety group, a phony fire safety group that lobbied on 
behalf of the industry.
    The letter asks the American Chemistry Council to expel 
three companies, Albemarle, Chemtura, and ICL, for their 
unethical behavior. Do you know if the ACC has responded to 
this letter or if they have committed to expel these members?
    Ms. Pingree. I will say there is another letter in my 
testimony also from a group of State legislators and 
legislative leaders from around the country of which I signed 
that made a similar request following the Chicago Tribune 
story. And we received a response to our legislator letter. I 
do not know if there was a response made to the firefighter 
letter.
    The response we got from Cal Dooley, the head of the 
American Chemistry Council, was that they were going to let the 
member companies respond on their own. They thought that there 
were some misleading facts out there in the Chicago Tribune 
story; they were not prepared to take this action despite their 
own ethics and responsibility code that they said that they 
abide by.
    In fact, the American Chemistry Council in that same letter 
said we are not involved in these State legislative battles so 
we will leave it to these folks to respond on their own----
    Senator Boxer. So, they took no responsibility.
    Ms. Pingree. They took no responsibility, yes.
    Senator Boxer. For this phony group that said they posed as 
a fire safety group.
    Ms. Pingree. Yes.
    Senator Boxer. And it included Mr. Moore, so I am going to 
ask Mr. Moore, following up, who was on this fire safety group 
that actually was an honest broker?
    Mr. Moore. In terms of Citizens for Fire Safety, Citizens 
for Fire Safety is an organization in which we were a founding 
member and have been a member of. Like many organizations, 
trade organizations, professionals were hired to organize it 
and run the organization.
    Senator Boxer. So, wait a minute. The chemical companies 
were a member of the fire safety group. This was your 
credential. You are a chemical company, but you are suddenly 
considered some kind of advocate for fire safety and expert on 
that? Is that what you did by joining?
    Mr. Moore. Yes, Senator Boxer, we are members of that 
organization. As a provider of flame retardants we do have----
    Senator Boxer. You do not see a conflict of interest? Let 
us just talk between us and make believe no one is listening. 
You make these products and yet you do not see an ethical 
problem with being on a group that says you are for fire 
safety? You do not see an ethical problem, a conflict of 
interest in that?
    Mr. Moore. Respectfully, Senator, I do not see a conflict 
of interest in that.
    Senator Boxer. Well, you ought to take a little lesson in 
ethics if you do not see it.
    Now, your testimony states that your company has acted 
proactively to fully comply with EPA's chemical management 
regulations. You talked about that today. We fully complied. 
But last month your company was assessed a $56,000 penalty for 
failing to comply with the reporting requirements of TSCA and 
EPA regulations for manufacturing two brominated flame 
retardant chemicals in 2005. Why did your testimony fail to 
mention this? Why would you say you fully complied when you did 
not?
    Mr. Moore. Senator, my understanding of the that particular 
case if that there were clerical errors at the time of the----
    Senator Boxer. That there were what? I am sorry.
    Mr. Moore. There were errors in the reporting at the time 
of that reporting which occurred several years ago. The penalty 
that was assessed was a reduced assessment because of our 
proactive cooperation to correct those errors.
    Senator Boxer. But you were assessed a $56,000 fine, were 
you not?
    Mr. Moore. That is my understanding, yes, Senator.
    Senator Boxer. Well, I think if you are going to say that 
you complied you should have mentioned that. Just in fairness.
    Mr. Moore, your testimony cites a 1988 study conducted by 
the U.S. Department of Commerce to support your claim that 
adding flame retardant chemicals to household items are 
effective fire protection. Now, the Chicago Tribune cited the 
study's lead author who said that the chemical industry has 
grossly distorted the findings of the study. That--the study's 
lead author said the chemical industry distorted the findings 
of the study and that flame retardants in home furnishings 
offer little or no fire protection.
    Do you not think it is time that the chemical industry 
stopped grossly distorting the study's findings? When the 
author says that is what you are doing? Do you not owe people 
an apology?
    Mr. Moore. With all due respect, Senator, we have not 
distorted the findings of that study. You will find----
    Senator Boxer. Whoa, whoa, whoa. The author said you did. 
Who is a better source? The study's lead author said the 
chemical industry has quote unquote grossly distorted the 
findings of the study and that flame retardants in home 
furnishings offer little or no fire protection. Why are you not 
apologizing for grossly distorting the study? I do not get it.
    Mr. Moore. Senator, if you would refer to my written 
testimony, the exact conclusions from that study are presented 
in those findings. There were several other authors at NBS, 
which is now NIST, that participated in that study. I have 
personally spoken to some of those scientists who have assured 
me that the conclusions of those studies are as valid today as 
when they were published and that study is still available 
through NIST.
    Senator Boxer. Well, if I wrote a study, and people took it 
out of context and distorted it, I think the right thing to do 
is to say I am not going to use it any more. But that--it is an 
ethical question. You have to live with yourself over it.
    Dr. Stapleton, when flame retardants persist in the 
environment, can they slowly break down into other chemicals? 
And during and after fires, can they more quickly break down 
into other chemicals? And can these other chemicals be more 
toxic than flame retardants?
    Ms. Stapleton. Yes. When speaking about PBDE flame 
retardants, there is evidence suggesting that the Deca-BDE can 
break down in the environment to Penta- and Octa-BDE which are 
known to be more bioaccumulative and potentially toxic.
    In addition, when these chemicals are present in consumer 
products and they do burn, they can form what are known as 
brominated dioxins and furans, which are much more toxic than 
the parent compounds and are linked to cancer.
    In addition, I would just like to comment that peer 
reviewed studies have also demonstrated that the presence of 
these chemicals in consumer products leads to the generation of 
more soot, smoke, and carbon monoxide when they do burn which 
one could argue actually increases fire hazards.
    Senator Boxer. And Doctor, I would assume you believe that 
the substitutes for these chemicals, as they come out, you 
would believe they should be tested thoroughly.
    Ms. Stapleton. I do think we need more data on them, and 
that is something my colleagues and I are trying to provide, 
more data on the potential health effects from these chemicals 
in relation to the current exposure levels that are occurring 
in the general population, particularly for children.
    Senator Boxer. And of course, that is the essence of 
Senator Lautenberg's bill, which is to make sure that these are 
safe before they are routinely used.
    And we have people like our heroes, our first responder 
heroes like Mr. Stefani here who beat back cancer. And he 
describes--and I am going to ask you--one of the main concerns 
that firefighters have following a fire is during the overhaul 
process when the fire is extinguished by burned material at the 
site, and you have this off gas. Can you explain what you mean 
by off gas?
    Mr. Stefani. Sure. The products of combustion that have 
been extinguished, if you can actually visualize this, you are 
in a room and you would have still some smoke weeping. But 
there are also toxic gases that you cannot see. We have what is 
called Combustion Gas Indicators and these indicators are 
capable of picking up various toxic gases, usually about four 
of them. The problem herein lies that they do not pick up the 
100 plus other chemicals that we are confronted with.
    And once these CGI monitors deem the atmosphere to be 
cleared, the incident commander can have firefighters remove 
some of their self-contained breathing apparatus and continue 
the overhaul process and actually increase the level of 
exposure. But the problem is that even if this self-contained 
breathing apparatus is taken off, we are now told that these 
chemicals do have the ability to permeate parts of this 
equipment, even though they are in place.
    Senator Boxer. Well, Mr. Stefani, firefighters put their 
lives on the line every day, and I do not believe that you 
should have to risk the long-term health effects of being 
exposed to these dangerous chemicals and because there are 
certain people in this society who seem to put their business 
interests ahead of safety.
    You started to talk about female firefighters, and I would 
like to ask you about that. Could I put that whole study into 
the record? Is that all right?
    Mr. Stefani. Absolutely.
    Senator Boxer. All right. We will do that. But is there--I 
understand that in San Francisco these breast cancers have come 
forward in female firefighters. Are there researchers looking 
into this rate and doing some studies on it?
    Mr. Stefani. We have just put a panel together, and we are 
going to address that issue. One of the things that we have 
come to find is the women in the fire service have not been in 
for a large--long period of time, maybe 30 to 40 years right 
now. And there have been no studies that we know nationwide of 
female firefighters. We are in the initial stages right now of 
putting that exact study together.
    Senator Boxer. That would be very helpful. Would you keep 
this Committee informed as you go forward?
    Mr. Stefani. Yes, Senator.
    Senator Boxer. Thank you.
    Senator Lautenberg.
    Senator Lautenberg. Dr. Stapleton, studies have found that 
children born in this country have higher levels of toxic 
chemicals than those in other countries. What is it that puts 
newborns at risk at the level that we have with flame 
retardants in their bodies? How does that take place?
    Ms. Stapleton. Animal exposure studies have demonstrated 
that when you expose young animals, developing organisms, that 
these are very critical, sensitive time points when their brain 
is developing that the effects can manifest into adulthood and 
be more pronounced that if you expose them, let us say, during 
adolescence or adulthood.
    So, the concern is that the ability of these chemicals to 
influence the way that our neurons develop, the way that they 
differentiate, the communication between brain cells which can 
lead to problems with neural development which are reflective 
of studies that I have seen of the effects on children such as 
reductions in IQ and problems in gross and fine motor skills in 
the U.S. population.
    Senator Lautenberg. So, have these exposures taken place in 
the development of the fetus that the mother passes on?
    Ms. Stapleton. Yes. Studies have demonstrated that when a 
pregnant woman or a pregnant animal is exposed to these, they 
are transferred to the developing fetus through placental 
transfer and through lactation. So, when a mother breast feeds 
her child, they are exposed to those chemicals as well.
    Senator Lautenberg. Ms. Pingree, you make a point in your 
testimony that the States are running around trying to ban 
these fire retardants and flame retardants. Would you not think 
that if EPA had the authority to address these chemicals under 
TSCA that the States could be relieved of a burden knowing that 
they are doing the right thing and leveling the playing field, 
no matter what State you are operating in?
    Ms. Pingree. That is a good question. Certainly, State 
legislators have started to act on this issue and have acted 
for the last 10 years because of the failure of the Federal 
law. I think our interests at the States is to respond directly 
to our citizens who we represent, and if there is a public 
health interest, the State legislator will work toward 
protecting that public health.
    Certainly, if the EPA had had authority starting in 1976 to 
really regulate these chemicals and protect public health, and 
we did not see a chemical like Deca on the market that we knew 
was bad for people's health, or PBA or one of the hundreds of 
chemicals that we know are of concern, the States would not 
have to take action. But that being said, the States will 
continue to take action until we are confident that public 
health is protected.
    In the case of Deca, which I talked about, it was--a phase-
out was agreed to in 2009. In 2010 I actually proposed a bill 
because they had agreed to stop using it in certain products, 
but there was a new use. They started using it in huge 
quantities in plastic pallets, pallets that were used to 
transport food, all kinds of consumer items, and we knew that 
these pallets were already leaching Deca onto the packages, 
into the environment. So, the challenge is, we know, that even 
when we took action in Maine, it led to the industry trying to 
figure out another use for that chemical in another place.
    So, the States will certainly, I am sure--slow action if 
the Federal Government is able to act to a degree that we know 
protects public health. But until then, I think the States will 
keep acting.
    Senator Lautenberg. Mr. Rawson, I noticed that in the 
letterhead on your testimony, that you describe yourself as 
Partner and Chair of the Environment, Land and Resources 
Department in Washington, DC. It then lists Latham & Watkins. 
Is that a position of great responsibility, Partner and 
Chairman of a department within the law firm?
    Mr. Rawson. I am a partner in the firm. Thank you. I am a 
partner in the firm. We have a very large environmental 
practice. We have a Global Department Chair who is based in Los 
Angeles, and I am the local Department Chair. I am the Chair of 
the practice in Washington, DC.
    Senator Lautenberg. I must say that there is a subtle 
implication here that this is some part of either Government or 
otherwise, but do it as you may, I do not think it lends 
particular credibility. But that is up to you.
    And we hear the appeals that go on to say that everybody is 
dealing in good faith and that the Albemarle Corporation, our 
Chairman noted, had some problems. How do you explain that 
these problems occurred? I was not sure I got the answer 
before.
    Mr. Rawson. With apologies, I do not understand your 
question.
    Senator Lautenberg. OK. Was there a fine imposed on 
Albemarle Corporation for a reason?
    Mr. Rawson. This might be a question that should be 
directed to the person to my right if you are referring to the 
fine that Senator Boxer was----
    Senator Lautenberg. I am sorry. Yes, you are right.
    Mr. Moore, you did deal with it, and you described it as 
clerical error that caused this problem.
    Mr. Moore. Yes, Senator. I was not personally involved in 
the resolution of this, but I do understand that there was an 
error--again this goes back to 2002, 2006--just a simple error 
in the reporting. But our representatives that worked with the 
EPA worked proactively to resolve this and in recognition of 
our proactivity in resolving this, got a--the penalty was 
reduced.
    Senator Lautenberg. Mr. Stefani, your testimony is really 
important. I was amazed at the number of firefighters that are 
represented by the organization that you are talking about, 
290,000. Is that the number of firefighters that the 
organization represents?
    Mr. Stefani. No. The San Francisco Firefighters Cancer 
Prevention Foundation, our foundation, is based in San 
Francisco, and it is both retired and active firefighters that 
we deal with.
    Senator Lautenberg. Some years ago, we had an incident in 
Elizabeth, New Jersey, when firefighters went into a building 
aflame, and what happened is the exposure to the chemicals that 
were stored in this facility and the uniforms that the fireman 
were wearing actually began to melt.
    Thus, I wrote a law that was called the Right to Know Law, 
and the consequence was that there was a substantial--and that 
was in 1986--there was a substantial reduction in the amount of 
toxic emissions that were coming from these companies. And I am 
not surprised when you talk about your experience and how heavy 
a burden it was on you and what the ultimate outcome was for 
having to go into these situations and face these chemical 
presence as it is.
    So, I thank all of you for being here and testifying. But I 
must say that the unwillingness of our two friends in the 
middle of the table to acknowledge that there can be value in 
getting testing to protect the people who are subjected to 
these influences in the environment. And I would think that the 
companies that you talk about or talk up would want to be part 
of an effort to reduce the risk to the people in our country 
from the fire retardants for which substitutes are apparently 
available.
    Thank you.
    Senator Boxer. Thank you, Senator.
    Senator Whitehouse.
    Senator Whitehouse. Thank you, Chairman, and thank you for 
holding this hearing and Senator Lautenberg for his long 
standing leadership in this area. This obviously hits home in 
Rhode Island because researchers at the University of Rhode 
Island have found these PBDEs throughout Narragansett Bay with 
concentrations highest near Providence where most of our 
population lives.
    And from Dr. Stapleton's findings, it seems to be 
consistent with the national findings. She says that the 
Centers for Disease Control and Prevention have said that 99 
percent of the U.S. population has flame retardants in their 
bodies. U.S. adults have body burdens that an order of 
magnitude higher than European and Asian countries and that 
studies have shown that children clearly have much higher 
exposure and body burdens of flame retardants compared to 
adults.
    Could you tell me, Dr. Stapleton, kind of go--take it back 
a step, why does a chemical bioaccumulate? Have we not 
developed processes as organisms for processing chemicals 
through our bodies?
    Ms. Stapleton. Well, certainly we have enzymes or proteins 
in our body that are capable of metabolizing certain compounds. 
However, substantial data exists to show that there are certain 
chemical features that are resistant to metabolism. And in the 
case of PBDEs, those structures are clearly represented. They 
are very non-polar, they are halogenated, they are quite large, 
they have what we call a high hydrophobicity factor, a low KOW, 
which leads to this bioaccumulation potential and resistance to 
metabolism in the body.
    Therefore, some of these PBDEs are estimated to have what 
we call a half-life, or the time it takes for the 
concentrations of these compounds to decrease in the body by 50 
percent, of up to 7 years. So, it takes a long time before the 
levels will drop.
    Senator Whitehouse. And from a layman's point of view or 
from a more general point of view, are new and manmade 
chemicals more likely to be difficult for the human body to 
process than ones that have been--ones that we have adapted to 
over years, generations of exposure?
    Ms. Stapleton. Well, this is a little outside my area of 
expertise as I am a chemist and not a toxicologist or a 
physiologist. But I can say that typically our bodies are not 
used to processing these chemicals for sure, and they can lead 
to more increased exposure or accumulation in our tissues.
    However, some of the chemicals in PBDEs are a classic 
example of this heavy structure that is actually very similar 
to hormones in our body, which is what results in what we 
believe are--is responsible for their potential toxicity. PBDEs 
have a structure, a chemical structure, that is very similar to 
thyroid hormones, for example, which is one of the reasons they 
are known to effect thyroid hormone regulation.
    Senator Whitehouse. Now, when you were looking into your 
research, you have indicated that claims about confidential 
business information inhibited your ability to do the research 
that you are trying to do. Could you elaborate a little bit on 
what limitations you experienced?
    Ms. Stapleton. Certainly. Well, with the growing evidence 
that the PBD concentrations were increasing in human tissues, 
many academic researchers were interested in conducting 
exposure studies or trying to identify the primary routes by 
which people are exposed and identify what the most common 
sources were in our homes or to which we come in contact with 
on a daily basis.
    And unfortunately, these products, as I said, they are not 
labeled. When speaking with the Polyurethane Foam Manufacturers 
Association, for example, several of them have told me that 
sometimes they do not even know what chemicals they are putting 
into their products that they manufacture in terms of 
furniture.
    The only way we were able to determine what chemicals are 
actually used, are found in products on the market today, was 
by taking samples of those products and spending a lot of money 
and using very expensive equipment to analyze them in my 
laboratory. We found many of them to have proprietary 
chemicals, but with the technology today, we can determine what 
those structures are. Now we are beginning to assess exposure 
to those new chemicals and trying to determine what the 
potential health hazards may be.
    Senator Whitehouse. So one could hypothesize that if one 
were concerned about a competitive business motive for 
protecting this information, it would be within the realm of 
most major corporations to be able to afford the kind of 
testing that you did. So, they would really have no problem 
being able to figure it out. It is independent testers who do 
not have access to that kind money that are most disabled by 
the confidential business information claims.
    Ms. Stapleton. That is correct. In this day and age it is 
not that difficult to determine what the chemical structures 
are in all of these different products.
    Senator Whitehouse. So, if a big company wanted to do what 
you did they could do it pretty readily?
    Ms. Stapleton. Yes.
    Senator Whitehouse. But a researcher, it is a real handicap 
for.
    Ms. Stapleton. Well, this is why we are doing this, 
determining what their structures are so that we can determine 
what the levels are in our indoor environments and what the 
levels or the exposure levels are for children and then run 
some toxicity studies with them.
    Senator Whitehouse. Mr. Moore, what dangers at what levels 
of exposure exist with respect to the flame retardants that 
Chemtura manufactures?
    Mr. Moore. First, we manufacture a wide variety of flame 
retardants. With respect to the ones we are discussing today, 
Firemaster 550 and TBB within that, we have conducted over 30 
studies for regulatory agencies as part of the pre-
manufacturing notification review of TBB. Those studies were 
reviewed, submitted to EPA, 15 of those studies were required 
by EPA. The assessment of those found that the relative risk of 
those are extremely low and were acceptable for safe use in 
their application.
    I would like to comment on your other question, if I may.
    Senator Whitehouse. Well, let me try to get an answer to my 
first question. Does Chemtura concede any danger from its--from 
these two flame retardants that you have identified?
    Mr. Moore. Again, in terms of the expected exposures, in 
2006 EPFC published expected exposures or predicted exposures 
of TBB and those are much lower than any level that was 
predicted to have any sort of an effect. So, in those terms, 
the answer to your question would be that no, those are----
    Senator Whitehouse. They are perfectly safe. OK.
    Ms. Pingree, I wanted to go to a section of your testimony, 
and I would like to highlight it. Maine does not have 
disclosure laws, you said, that would allow us to understand 
the full magnitude of the spending against your bill to 
regulate these flame retardants.
    We know that the chemical industry hired many of the 
State's top paid lobbyists and public relations groups. They 
proceeded to pay for several weeks of high saturation 
television and newspaper advertising across the State urging 
defeat of a chemical ban. They ran 27 full-page ads in the 
State's largest newspaper, and in addition to weeks of 
television ads, they purchased radio spots, direct mail to 
voters, and paid robo-calls. Was this all done through the 
front group?
    Ms. Pingree. Yes.
    Senator Whitehouse. Or was some of it done in the name of 
the chemical companies?
    Ms. Pingree. In Maine, it was all done through a front 
group called Keep America Safe which has been replaced by 
Citizens for Fire Safety.
    Senator Whitehouse. The chemical industry front group which 
did all of this, right, at the time was called Keep America 
Fire-Safe, since renamed Citizens for Fire Safety. As you said, 
despite their name, during their time before the Maine 
legislature, the chemical industry and its allies had no 
support from State fire safety groups or fire professionals.
    Keep America Fire-Safe even paid for an ad that claimed 
Maine legislators were seeking to weaken fire safety 
accompanied by video of a burning house. You could imagine what 
that would look like. The ad urged the public to call their 
legislators and tell them to vote against these proposed 
changes for the sake of fire safety.
    You also noted that flame retardants bans, your 
legislation, were strongly supported by Maine's fire 
professionals including the State Fire Chiefs Association and 
the major State firefighters union, the International 
Association of Firefighters. Both groups, you say, worked 
aggressively for the bill's passage, and the firefighters spoke 
passionately about the negative impacts of these chemicals on 
firefighter health.
    I gather there was one group that went with the chemical 
industry. It was called the National Association--not Maine 
Association--the National Association of State Fire Marshals 
which received pro bono work from the public relations firm 
that was representing the chemical companies and received 
significant financial support from those chemical companies, 
and then turned around and lobbied for more stringent State 
flammability standards which would require more flame retardant 
chemicals. That would appear to be a conflict of interest.
    Ms. Pingree. And I will say, speaking directly to the 
National Fire Marshals Association, at the time we were working 
on our bill in Maine, John Dean, our State Fire Marshal in 
Maine, was the head of the National Fire Marshals Association 
and was prepared to testify against our bill. He works for the 
Governor, and he was somewhat outed for their relationship in 
Washington with the flame retardant industry. And he either 
ended up testifying neither for nor against or actually 
supporting the legislation.
    But we had uncovered this relationship which was obviously 
a huge conflict for the State fire marshals who at the time 
were receiving significant funding from the chemical companies 
who produced flame retardants. So, that was a relationship that 
obviously was not working for the benefit of public health or 
fire safety.
    Senator Whitehouse. It just strikes me, Madam Chair, that 
this is what Rhode Islanders hate about politics and about the 
manipulation of politics. It really has got all of the 
ingredients. You have got a lack of disclosure. We just went 
through this big exercise on the Disclose Act in Washington to 
try to put a little bit of sunlight into who is spending $1 
million, $2 million, $4 million to achieve special interest 
influence around here, and we were defeated, unfortunately.
    You have got a sort of high intensity bombardment of the 
public by the special interests. You have got dishonesty in the 
way it is done with what looks to me like a phony group that is 
set up just for the purpose of pretending to represent fire 
safety interests when it truly actually supports chemical 
company interest. You have got all sorts of lobbyists and 
maneuvers involved. You have got legitimate associations that 
have lent themselves to conflict of interest and are now, 
unfortunately, perhaps working more consistent with the 
conflict of interest than with the true interests of the fire 
marshals around the country. And the result was that--what 
happened?
    Ms. Pingree. Well, I mean, you point out that like the 
people in Rhode Island, the people of Maine did not buy it. 
They did not call us. They did not tell us to vote against this 
bill. And the bill ended passing nearly unanimously in the 
House and Senate. Republicans, Democrats, all supported it 
because they did not want to be on the wrong side of protecting 
kids, protecting pregnant women, protecting people's health.
    I think we made a strong case, and despite a lot, a lot of 
money, we still won. And so, certainly, that is what we are 
hoping to see in your Committee. Thanks.
    Senator Whitehouse. So, congratulations. Sometimes the good 
guys can win despite all of the machinations of special 
interests.
    Thank you, Madam Chair.
    Senator Boxer. Thank you so much.
    If I could just talk about California for a minute. We know 
that UC San Francisco studied the blood samples from pregnant 
women in California. We, in our State, generally had higher 
levels of PBDEs than other women in the United States as well 
as Europe and Asia and that the women also had lower levels of 
hormones produced by the thyroid.
    Now, one theory is that California was an early State that 
said we needed flame retardants. So, they are now working on 
the details of that study. But it very disturbing.
    And I want to thank you, Tony, very much for the work you 
are doing. I mean, I am so grateful to you. And all of you for 
coming here today.
    So, I have a question I want each of you to answer yes or 
no. There is no other answer. Just yes or no. And I am going to 
start with Hannah.
    Do you agree that chemical manufacturers should have to 
prove through unbiased studies that their products are safe for 
pregnant women, for infants, and for children before they can 
sell those chemicals in the U.S.?
    Ms. Pingree. Yes.
    Ms. Stapleton. Yes.
    Mr. Moore. Yes, I agree.
    Mr. Rawson. Could you repeat the question?
    [Laughter.]
    Senator Boxer. Do you agree that chemical manufacturers 
should have to prove through unbiased studies that their 
products are safe for pregnant women, for infants, and for 
children before they can sell those chemicals in the U.S.?
    Mr. Rawson. Respectfully----
    Senator Boxer. No, not respectfully. Yes or no.
    Mr. Rawson. The question cannot be answered without 
explanation.
    Senator Boxer. Mr. Stefani.
    Mr. Stefani. Yes.
    Senator Boxer. Thank you. Majority wins. Let me just say 
the reason we are having the markup is just to answer that 
question. If someone cannot answer that question with an 
affirmative response, then they are putting the special 
interests before the health of the people, before the health of 
their own kids, before the health of the first responders.
    You can say, with due respect I am a lawyer, and I see 
every side of it. Well, I am married to a lawyer, my son is a 
lawyer, my dad was a lawyer. I know that it is a little harder 
for lawyers to answer yes or no.
    But this one? Do you agree that chemical manufacturers 
should have to prove through unbiased studies that their 
products are safe for pregnant women, for infants, and for 
children before they can sell those chemicals in the U.S.? And 
the reason we are having the markup of Senator Lautenberg's 
bill is because that is what we are going to do here.
    Now, we are going to have a hard time because the chemical 
industry and their spokespeople are very strong. We are going 
to have a hard time because there is a lot of money on the 
line, and you know about follow the money. But at the end of 
the day, the people are going to be on the side of making sure 
products are safe for pregnant women, for children, for 
infants, for firefighters whom they revere. And I am going to 
do everything I can.
    I want to say thank you to all of you. I know our minority 
witnesses lost a little bit of back up for some reason, but I 
do not know why, but that is what happened here. So, that is 
the situation.
    I thank you all. If you have anything further we will keep 
the record open for 24 hours if you want to expand on anything 
you said here today. Thank you very much.
    We stand adjourned.
    [Whereupon, at 12:10 p.m., the Committee and Subcommittee 
were adjourned.]
    [An additional statement submitted for the record follows:]

                   Statement of Hon. Jeff Sessions, 
                 U.S. Senator from the State of Alabama

    Good morning. Thank you, Chairman Boxer and Subcommittee 
Chairman Lautenberg, and Ranking Member Inhofe and Subcommittee 
Ranking Member Crapo, for calling this hearing on chemical 
safety and flame retardants. The impact of chemicals on human 
health is an important issue and worthy of serious 
consideration. Exposures to chemicals in the home environment 
tend to pose greater risks to children than other members of 
the general public. Likewise, children are often more 
vulnerable to serious injury or death than adults when home 
furnishings catch fire.
    Last week, Senator Durbin held a Senate Appropriations 
subcommittee hearing on this same topic. My colleague Senator 
Lautenberg is a member of that subcommittee as well and spoke 
eloquently at that hearing on the topic of chemical safety and 
flame retardants. Senator Lautenberg, I know this is a priority 
for you, and I thank you for your leadership and work on this 
issue.
    I would agree with my colleagues that Federal laws 
governing the use of chemicals--including the Toxic Substances 
Control Act and the Flammable Fabrics Act--should be 
modernized. But we must do so in a manner that is warranted, 
protects public health, employs a transparent science-based 
process that takes into account relative risks, provides 
appropriate safeguards for intellectual property and 
proprietary information, and appropriately considers cost.
    The United States has a vibrant chemicals industry 
generating over $720 billion each year in products, employing 
over 800,000 Americans, and providing millions of other related 
jobs. Our nation's chemical sector is a global leader, and we 
need a regulatory framework that keeps it that way, while also 
protecting public health and the environment.
    The testimony of today's witnesses focuses primarily on 
concerns with chemical flame retardants. Fire deaths are a 
major concern in my State. In 2009 Alabama ranked #3 among the 
50 States in the rate of fire-related deaths, with 
approximately 21 fire-related deaths per 1 million people. The 
national average in 2009 was 11 deaths per million people. 
According to the Centers for Disease Control and Prevention, 
``deaths from fires and burns are the third leading cause of 
fatal home injury.'' While more progress is needed, the 
national fire death rate has declined approximately 20 percent 
since 2000.
    Studies have shown that flame retardants can be effective 
at making homes, clothing, furniture, and electronics less 
prone to catching fire--although it is also true that not all 
flame retardants are without health concerns. For example, in 
2005 the furniture industry voluntarily phased out the use of 
PBDEs (polybrominated diphenyl ethers)--a chemical that has 
been used as a flame retardant in textiles, plastics, wire 
insulation, automobiles, and other applications. Likewise, 
around the same time, EPA issued a rule banning the manufacture 
or import of two chemicals in the same chemical family as 
PBDEs. And presently, EPA has additional rulemaking procedures 
underway related to flame retardants. It is absolutely critical 
for public health, safety, and economic competitiveness that 
any such rules be based on sound science.
    Finally, I wanted to read from the testimony of the CEO of 
the American Home Furnishings Alliance, who testified at last 
week's Senate Appropriations subcommittee hearing on this same 
topic. That witness stated, ``[C]ost must be a consideration. 
The statistics of residential fires have told us repeatedly 
over the years that the residential fire problem in the United 
States primarily lies in households with lower incomes, less 
education, and a higher proportion of single parents. This 
segment of the population is the most sensitive to cost 
increases, yet this segment is clearly the most in need of the 
protection that safer upholstery will provide . . . ''
    Thank you again for holding today's hearing. I look forward 
to hearing from our witnesses.

    [Additional material submitted for the record follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
  
    
                                 <all>
</pre></body></html>
